<html>
<title> - THE NORTHERN NORTHERN BORDER: HOMELAND SECURITY PRIORITIES IN THE ARCTIC, PART I</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


   THE NORTHERN NORTHERN BORDER: HOMELAND SECURITY PRIORITIES IN THE 
                             ARCTIC, PART I

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 19, 2019

                               __________

                           Serial No. 116-37

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
39-838 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                             
                             ------                                

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

                  J. Luis Correa, California, Chairman
Emanuel Cleaver, Missouri            Debbie Lesko, Arizona, Ranking 
Dina Titus, Nevada                       Member
Bonnie Watson Coleman, New Jersey    John Katko, New York
Nanette Diaz Barragan, California    John Ratcliffe, Texas
Val Butler Deming, Florida           Mark Green, Tennessee
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
                Alex Marston, Subcomittee Staff Director
            Kyle Klein, Minority Subcomittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Chairman, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Debbie Lesko, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Prepared Statement.............................................     7
The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Ranking Member, Committee on Homeland 
  Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     6

                               Witnesses

Mr. Michael Sfraga, Director, Global Risk and Resilience Program, 
  and Director of Polar Institute at the Wilson Center:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Ms. Abbie Tingstad, Senior Physical Scientist, Rand Corporation:
  Oral Statement.................................................    12
  Prepared Statement.............................................    14
Ms. Victoria Hermann, President and Managing Director, The Arctic 
  Institute:
  Oral Statement.................................................    19
  Prepared Statement.............................................    20
Mr. Luke Coffey, Director, Douglas and Sarah Allison Center for 
  Foreign Policy, Heritage Foundation:
  Oral Statement.................................................    25
  Prepared Statement.............................................    27

 
   THE NORTHERN NORTHERN BORDER: HOMELAND SECURITY PRIORITIES IN THE 
                             ARCTIC, PART I

                              ----------                              


                      Thursday, September 19, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Transportation 
                                     and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:21 p.m., in 
room 310, Cannon House Office Building, Hon. J. Luis Correa 
(Chairman of the subcommittee) presiding.
    Present: Representatives Correa, Demings, Lesko, Katko, and 
Rogers.
    Mr. Correa. Good afternoon, everyone.
    The Subcommittee on Transportation and Maritime Security 
will come to order.
    The subcommittee is meeting today--the subcommittee is 
meeting here today to receive testimony on the ``Northern 
Northern Border, Homeland Security Priorities in the Arctic, 
Part 1.''
    Without objection, the Chair is authorized to declare the 
subcommittee in recess at any time. I want to thank you, 
Ranking Member Lesko, and our panel of witnesses for joining us 
here today. Welcome.
    Today's hearing will discuss a changing Arctic and U.S. 
strategic interests in that region, specifically, priorities 
for securing the homeland. A change in climate has already led 
to diminishing sea ice, opening up parts of the Arctic for 
increased economic and maritime activity. Sadly, our Government 
is ill-prepared for this new reality.
    I am concerned that the aggressive actions of other 
nations, mainly Russia and China, threaten to undermine the 
international order. Russia has expended its military 
installations and footprint in the Arctic, investing heavily in 
a large icebreaker fleet of more than 50 icebreakers, reviving 
Cold War bases and deepwater ports and, of course, solidifying 
infrastructure in the region as well.
    China has also made its Arctic ambitions very clear, 
declaring itself a near-Arctic state and, despite being located 
a thousand miles away, in investing strategically in economic 
activity in key geographic areas in the region. China is 
investing in what it calls a Polar Silk Road.
    Russia and China both stand to profit significantly from 
trade routes that will become increasingly passable as ice 
shelves continue to recede. The image on the screens, the 
images there, show the potential benefit of a Northern Sea 
route through the Arctic.
    According to The Washington Post, the Northern Sea route 
shown in orange traverses 8,000 miles from East Asia to Western 
Europe, and that is about 5,000 miles shorter than the current 
route shown in blue. The Northern Sea route will enable China 
to ship goods to Europe in about 2 weeks faster than it can 
now, and it will provide Russia the opportunity to charge ships 
a fee to travel through waters over which it can claim 
jurisdiction.
    Along with the new shipping routes, melted ice in the 
Arctic will allow for increased tourism, fisheries, energy 
exploration, and infrastructure development.
    With these new opportunities come major challenges for us. 
First, we must ensure that the Arctic development is 
sustainable with minimal impact to the environment and 
supportive of local communities, including the indigenous 
people.
    Next, we must ensure that the U.S. Coast Guard is prepared 
to execute its multifaceted missions in this changing region. 
The Coast Guard's mission in the Arctic includes port security, 
search and rescue, regulation of shipping and fishing, law 
enforcement, and support of scientific research. The Coast 
Guard is also responsible for maintaining a U.S. presence in 
our territory of waters and defending our security in economic 
interests in the region.
    The Coast Guard, however, is constantly being asked to do 
more with less. For example, the Coast Guard has a major 
icebreaking capability gap, and currently, the Coast Guard has 
only two polar icebreakers, one which is a heavy-duty 
icebreaker, and the only other which is dedicated to the Arctic 
operations.
    The Coast Guard has stated that 6 polar security cutters 
will be necessary to successfully execute its mission in the 
Arctic. Congress has made significant investments modernizing 
Coast Guard assets, including fiscal year 2019 funds to begin 
construction of its first new polar security cutter. It will 
not be until the delivery of a second polar security cutter in 
2025 or later, however, that the Coast Guard will have a heavy-
duty icebreaking capability in the Arctic.
    In the mean time the Coast Guard will need to use other 
resources and capabilities to meet its Arctic mission to the 
best of its ability. This committee works hard to ensure the 
Coast Guard and its DHS partners have the authority and 
direction needed to protect the homeland. Sadly, the current 
administration consistently makes DHS's mission more difficult; 
and, in fact, the Coast Guard's mission is often overlooked and 
deemed as a secondary status. The President has repeatedly 
attempted to raid the DHS budget to pay for a Southern Border 
wall above all else, and this ignores critical security needs 
throughout the country, including at our maritime borders.
    Additionally, at a time when international cooperation 
leadership in the Arctic is sorely needed, the administration 
has failed to prioritize diplomacy in the region, scrapping the 
State Department's position of a special representative for the 
Arctic.
    We need to invest more in U.S. Government capabilities in 
the Arctic, not less, in order to assure that the Coast Guard 
and its partners can secure the homeland at our northernmost 
border.
    I look forward to hearing from our witnesses today about 
the scope of Homeland Security priorities in the Arctic and 
recommendations to address them. I look forward to holding a 
Part II hearing at a future date so we can hear directly from 
the Coast Guard and other Government partners on this most 
important topic.
    [The statement of Chairman Correa follows:]
                  Statement of Chairman J. Luis Correa
                           September 19, 2019
    Today's hearing will discuss a changing Arctic and U.S. strategic 
interests in the region, specifically priorities for securing the 
homeland. A changing climate has already led to diminishing sea ice, 
opening up parts of the Arctic for increased economic and maritime 
activity. Sadly, our Government is ill-prepared for this new reality, 
and I am concerned that the aggressive actions of other nations, namely 
Russia and China, threaten to undermine international order. Russia has 
expanded its military installations and footprint in the Arctic, 
investing heavily in a large icebreaker fleet--consisting of more than 
50 icebreakers--reviving Cold War bases and deep water ports, and 
solidifying infrastructure in the region. China has also made its 
Arctic ambitions clear, declaring itself a ``near-Arctic state'' 
despite being located almost 1,000 miles away and investing 
strategically in economic activity in key geographic areas in the 
region. China is investing in a ``Polar Silk Road.'' Russia and China 
both stand to profit significantly from trade routes that will become 
increasingly passable as ice shelves continue to recede. According to 
the Washington Post, the Northern Sea Route, shown in orange, traverses 
8,000 miles from East Asia to Western Europe--about 5,000 miles shorter 
than the current route, shown in blue.
    The Northern Sea Route would enable China to ship goods to Europe 
about 2 weeks faster than it can now, and it would provide Russia 
opportunities to charge ships a fee to travel through waters over which 
it claims jurisdiction. Along with new shipping routes, melted ice in 
the Arctic will allow for increased tourism, fisheries, energy 
exploration, and infrastructure development. With these new 
opportunities come major challenges. First, we must ensure Arctic 
development is sustainable, with minimal impact to the environment and 
supportive of local communities, including indigenous people. Next, we 
must ensure the U.S. Coast Guard is prepared to execute its 
multifaceted missions in this changing region. The Coast Guard's 
missions in the Arctic include port security, search and rescue, 
regulation of shipping and fishing, law enforcement, and support of 
scientific research. The Coast Guard is also responsible for 
maintaining a U.S. presence in our territorial waters and defending our 
security and economic interests in the region. The Coast Guard, 
however, has constantly been asked to do more with less. For example, 
the Coast Guard has a major icebreaking capability gap. Currently, the 
Coast Guard has two polar icebreakers--only one of which is a heavy-
duty icebreaker--and neither of which is dedicated to Arctic 
operations.
    The Coast Guard has stated that 6 polar security cutters will be 
necessary to successfully execute its missions in the Arctic. Congress 
has made significant investments in modernizing Coast Guard assets, 
including fiscal year 2019 funds to begin construction of its first new 
Polar Security Cutter. It will not be until the delivery of a second 
Polar Security Cutter in 2025 or later, however, that the Coast Guard 
will have heavy-duty icebreaking capabilities in the Arctic. In the 
mean time, the Coast Guard will need to use other resources and 
capabilities to meet its Arctic mission to the best of its ability. 
This committee works hard to ensure the Coast Guard and its DHS 
partners have the authorities and direction needed to protect the 
homeland. Sadly, the current administration consistently makes DHS's 
mission more difficult. In fact, the Coast Guard's mission is often 
overlooked and deemed as a ``secondary status''.
    The President has repeatedly attempted to raid the DHS budget to 
pay for a Southern Border wall above all else--ignoring critical 
security needs throughout the country, including at our maritime 
borders. Additionally, at a time when international cooperation and 
leadership in the Arctic is sorely needed, the administration has 
failed to prioritize diplomacy in the region, scrapping the State 
Department position of Special Representative for the Arctic. We need 
to invest more in U.S. Government capabilities in the Arctic--not 
less--in order to ensure that the Coast Guard and its partners can 
secure the homeland at our northernmost border. I look forward to 
hearing from our witnesses about the scope of homeland security 
priorities in the Arctic and recommendations to address them. I also 
look forward to holding a ``Part 2'' hearing at a future date so we can 
hear directly from the Coast Guard and other Government partners on 
this topic.

    Mr. Correa. Now I would like to recognize the Ranking 
Member of the subcommittee, the gentlewoman from the State of 
Arizona, Ms. Lesko, for an opening statement.
    Ms. Lesko. Well, thank you, Mr. Chairman, and thank you to 
the witnesses here, and welcome to the audience.
    I was the same. We were going to agree on just about 
everything until you got to the part where you said the Trump 
administration isn't doing anything, because they are.
    Mr. Correa. I didn't say Trump.
    Ms. Lesko. Oh, oh, oh, the current administration isn't 
doing anything, but that I disagree with you on, and I will 
actually reference it in my statement.
    So, again, thank you, Mr. Chairman. I appreciate our shared 
interest in this topic, and I appreciate you convening today's 
hearing to learn more about what the Department of Homeland 
Security can contribute to our position in the Arctic.
    As 1 of 8 countries with a geographic footprint within the 
Arctic Circle, the region is one of great National importance 
to the United States, and I think we agree on that.
    The area is abundant with natural resources, has immense 
value for scientific research, is a strategic position for 
National security purposes, and offers significant benefit to 
commerce and maritime shipping.
    Considerable changes are also taking place in the Arctic 
that will allow these potential benefits to be realized to a 
greater extent, while also making U.S. action more urgent. 
Changes in the levels of seasonal sea ice in the Arctic Ocean 
have allowed for increased transit through the area, while also 
increasing interest from other Arctic countries like Russia, 
and even non-Arctic countries, like China.
    In a renewed era of great power competition, one thing we 
can all agree on is the need to ensure the United States' 
National security is in the face of growing influence in the 
Arctic from Russia and China. As commerce grows in the region, 
U.S. interests in freedom of navigation must be protected if we 
are to fully realize the potential opportunities in a changing 
Arctic.
    The United States Coast Guard has a diverse range of 
missions as a component of the Department of Homeland Security, 
and recently, I was able to tour with them and it was a great 
experience. Drug interdiction, environmental enforcement, 
search and rescue, as well as port security are all 
responsibilities of the United States Coast Guard. The Coast 
Guard is also the sole owner and operator of the United States 
polar-capable fleet and thus best placed to facilitate the 
United States' sovereign presence in the Arctic.
    Yet, as the Chairman has noted, the United States Coast 
Guard relies on a single, aging, heavy icebreaker, the Polar 
Star, to conduct polar operations. As with any aging platform, 
the Solar Star suffers from frequent mechanical issues that can 
result in the need for maintenance at sea.
    In an attempt to remedy this situation, Congress, with the 
support of President Trump, enacted funding for the first new 
polar icebreaker in last year's appropriations. While funding a 
new heavy icebreaker is an important first step, it is 
imperative that this action is only the beginning of our 
Nation's Arctic conversation.
    The Coast Guard stated a need for 3 new heavy polar 
security cutters, and 3 medium polar security cutters in 2013. 
Since then, we have funded the first heavy polar security 
cutter, as well as the Trump administration has financed long 
lead-time terms for the second cutter.
    To maintain the United States' position in the Arctic 
during this dynamic period, we must consider the benefits of 
our Arctic activity beyond just the military. We must recognize 
the importance of this mission and continue to direct our 
attention and investment to the Arctic region if we want to 
continue our sovereign presence.
    With renewed Coast Guard capability and continued National 
focus in the Arctic region, our usage and presence will 
continue to grow through increased commerce, research, and even 
tourism, as we are able to transit more of the Arctic ocean for 
longer periods of time. That is what we will need in order to 
truly bolster our presence in the Arctic region, as other great 
powers, like Russia and China seek to project their own.
    This is a complex problem that requires complex solutions 
to achieve our Nation's desired result. Many scholarly 
organizations are focused on this issue. We will hear from some 
today.
    I look forward to hearing from you guys today.
    Whether that solution is continued investment, interagency 
efforts, existing international initiatives, or new 
international initiatives, Congress must set a new course for 
U.S. focus on the Arctic.
    So, again, thank you for being here today. I look forward 
to hearing more about this. I wish more people were here 
because I guess we are going to have the secret and be able to 
solve it together.
    [The statement of Ranking Member Lesko follows:]
                Statement of Ranking Member Debbie Lesko
                           September 19, 2019
    Thank you, Mr. Chairman. I appreciate our shared interest in this 
topic, and I appreciate you convening today's hearing to learn more 
about what the Department of Homeland Security can contribute to our 
position in the Arctic.
    As 1 of 8 countries with a geographic footprint within the Arctic 
circle, the region is of great National importance to the United 
States. The area is abundant with natural resources, has immense value 
for scientific research, is a strategic position for National security 
purposes, and offers significant benefit to commerce and maritime 
shipping. Considerable changes are also taking place in the Arctic that 
will allow these potential benefits to be realized to a greater extent 
while also making U.S. action more urgent. Changes in the levels of 
seasonal sea ice in the Arctic Ocean have allowed for increased transit 
through the area while also increasing interest from other Arctic 
countries like Russia and even non-Arctic countries like China.
    In a renewed era of great power competition, one thing we can all 
agree on is the need to ensure U.S. National security in the face of 
growing influence in the Arctic from Russia and China. As commerce 
grows in the region, U.S. interests and freedom of navigation must be 
protected if we are to fully realize the potential opportunities in a 
changing Arctic.
    The United States Coast Guard has a diverse range of missions as a 
component of the Department of Homeland Security. Drug interdiction, 
environmental enforcement, search and rescue, as well as port security 
are all responsibilities of the United States Coast Guard. The Coast 
Guard is also the sole owner and operator of the United States polar 
capable fleet and thus best placed to facilitate the United States' 
sovereign presence in the Arctic. And yet, the United States Coast 
Guard relies on a single, aging heavy ice breaker, the Polar Star, to 
conduct polar operations. As with any aging platform, the Polar Star 
suffers from frequent mechanical issues that can result in the need for 
maintenance at sea. In an attempt to remedy this situation, Congress 
enacted funding for the first new polar ice breaker in last year's 
appropriations. While funding a new heavy ice breaker is an important 
first step, it is imperative that this action is only the beginning of 
our Nation's Arctic conversation.
    The Coast Guard stated a need for 3 new heavy polar security 
cutters and 3 medium polar security cutters in 2013. Since then we have 
funded the first heavy polar security cutter as well as long lead time 
materials for a second. To maintain the United States' position in the 
Arctic during this dynamic period, we must consider the benefits of 
Arctic activity beyond just the military. We must recognize the 
importance of this mission and continue to direct our attention and 
investment to the Arctic region if we want to continue our sovereign 
presence. With renewed Coast Guard capability and continued National 
focus in the Arctic region, our usage and presence will continue to 
grow through increased commerce, research, and even tourism as we are 
able to transit more of the Arctic Ocean for longer periods of time. 
This is what we will need in order to truly bolster our presence in the 
Arctic region as other great powers like Russia and China seek to 
project their own.
    This is a complex problem that requires complex solutions to 
achieve our Nation's desired result. Many scholarly organizations are 
focused on this issue and I look forward to hearing from a few today. 
Whether that solution is continued investment, interagency efforts, 
existing international initiatives, or new international initiatives, 
Congress must set a new course for U.S. focus on the Arctic. Thank you, 
Mr. Chairman, and I yield back the balance of my time.

    Mr. Correa, thank you.
    Mr. Correa. Ms. Lesko, I think you might have just come up 
with a solution, the less the better to fix this problem but, 
with that being said, I would like to also welcome our Ranking 
Member of the Homeland Security full committee, and that is 
Representative Rogers from the good State of Alabama. I would 
like to recognize him for an opening statement.
    Welcome sir.
    Mr. Rogers. Thank you, Chairman Correa, and I appreciate 
you holding this important hearing and I appreciate the 
leadership of Ranking Member Lesko in this important issue.
    It is critical that we recognize the growing strategic 
importance of the Arctic to the U.S. interests. Russia and 
China are making significant investments in the Arctic. To 
them, the Arctic is a new battlefield where they are seeking 
every advantage over the United States. The United States must 
not be caught flatfooted. To defend our National security, 
homeland security, and sovereignty, we must make needed 
investments in Arctic infrastructure. To that end, I am pleased 
that Congress has funded one new polar security cutter for the 
Coast Guard and has appropriated funding for long lead 
materials for a second. These heavy icebreakers are long 
overdue, and once delivered, will greatly improve the Coast 
Guard's capability itself and presence in the region.
    Now, I thank each of the witnesses for appearing before 
this committee today to help improve our understanding of the 
Homeland Security implications of a changing Arctic.
    I yield back, Mr. Chairman.
    [The statement of Ranking Member Rogers follows:]
                Statement of Ranking Member Mike Rogers
                           September 19, 2019
    Thank you, Chairman Correa for holding this important hearing 
today, and I thank Ranking Member Lesko for her leadership on this 
issue.
    It is critical that we recognize the growing strategic importance 
of the Arctic to U.S. interests.
    Russia and China are making significant investments in the Arctic. 
To them, the Arctic is a new battlefield where they are seeking every 
advantage over the United States.
    The United States must not be caught flat-footed. To defend our 
National security, homeland security, and sovereignty, we must make 
needed investments in Arctic infrastructure.
    To that end, I am pleased that Congress has funded one new Polar 
Security Cutter for the Coast Guard and has appropriated funding for 
long-lead materials for a second.
    These heavy icebreakers are long overdue, and, once delivered, will 
greatly improve the Coast Guard's capabilities and presence in the 
region.
    I thank each of the witnesses for appearing before the subcommittee 
today to help improve our understanding of the homeland security 
implications of a changing Arctic, and I yield back.

    Mr. Correa. Thank you very much, Mr. Rogers.
    Other Members of the committee are reminded that under 
committee rules, opening statements may be submitted for the 
record.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                           September 19, 2019
    Under the current administration, a great deal of attention has 
been focused on our Southern Border. One thing that I appreciate about 
this committee, however, is our ability to simultaneously examine the 
vast range of security matters facing the homeland. Among these matters 
is the U.S. Coast Guard's mission to secure and protect the maritime 
domain--which includes U.S. Arctic waters. Many forget that the United 
States is, after all, an Arctic nation, given the geography of Alaska.
    The vastness of U.S. Arctic waters results in National security 
demands on the Coast Guard that are evolving and pressing. They demand 
our attention. The Coast Guard has identified its responsibilities in 
the Arctic as ensuring ``the homeland security, safety, and 
environmental stewardship of U.S. waters.'' Executing this mission in 
the region is becoming more difficult, as the Arctic's strategic 
importance is growing, and maritime activity is increasing. Studies 
show this increase in maritime activity is linked directly to climate 
change, as global warming has caused an overall decrease in the 
duration and thickness of sea ice coverage.
    Warmer temperatures are also inviting a rise in recreational 
activity and offshore exploration of natural resources. In addition to 
climate change, the Coast Guard has had to contend with the increased 
presence and aggression of geopolitical actors, like Russia and China, 
in the region. Both nations have identified increased presence in the 
Arctic as a strategic priority, motivated in part by the potential 
economic benefits that Arctic shipping routes could bring. Russia is 
increasing its military presence in the Arctic, building on what is 
already the world's largest number of icebreakers. With almost 50 
icebreakers, Russia has the capabilities, personnel, and infrastructure 
needed to operate in the Arctic year-round.
    China has likewise shown its Arctic ambitions, directing Chinese 
companies and government agencies to maintain an increased presence in 
the region to help create what it calls a ``Polar Silk Road.'' China 
has also announced its first domestically built icebreaker and plans 
for a nuclear-powered icebreaker. As we learn about the emerging 
capabilities of other geopolitical actors in the region, I am concerned 
about the Coast Guard's capability gaps in the Arctic--including a need 
for additional icebreakers and long-range patrol vessels. The Coast 
Guard currently has just 1 heavy polar icebreaker, the ``Polar Star,'' 
and 1 medium icebreaker, the ``Healy.'' The Polar Star is well past its 
service life and conducts missions in Antarctica--not the Arctic.
    Thankfully, Congress has made significant investments in building 
new Coast Guard assets, including funds to begin construction on a new 
Polar Security Cutter. This first Polar Security Cutter will replace 
the Polar Star and its responsibilities in the Antarctic; only a second 
Polar Security Cutter to be delivered in 2025 or later would finally 
provide the Coast Guard with icebreaking capabilities in the Arctic. It 
evident that the Coast Guard, and the U.S. Government as a whole, has 
some catching up to do to be able to protect U.S. interests in the 
Arctic. Without increased attention and investment in the strategies, 
resources, and personnel needed to operate at our northern-most border, 
the Coast Guard will risk falling further behind.
    I look forward to hearing from today's witnesses about homeland 
security priorities in the Arctic and how Congress can best support the 
Government's critical missions in the region.


    Mr. Correa. Now I would like to welcome the panel of 
witnesses. Our first witness, Dr. Michael Sfraga, is a director 
of the Polar Institute and Global Risk and Resilience program 
at the Wilson Center. His work is focused on changing geography 
in the Arctic and the impacts of social and political regimes 
in the region.
    Welcome, sir.
    You have 5 minutes for statement.

    STATEMENT OF MICHAEL SFRAGA, DIRECTOR, GLOBAL RISK AND 
  RESILIENCE PROGRAM, AND DIRECTOR OF POLAR INSTITUTE AT THE 
                         WILSON CENTER

    Mr. Sfraga. Thank you, Mr. Chairman. Thank you, Ranking 
Member Lesko, and Members of the committee.
    As the Chairman noted, I am the director of the Woodrow 
Wilson Center's Polar Institute and Global Risk and Resilience 
program.
    Members, today we are witnessing the opening of a new 
ocean, a fourth accessible maritime border for the United 
States. The Arctic Ocean joins the Atlantic Ocean, Gulf of 
Mexico, and the Pacific Ocean as a critical geographic 
component of our country's maritime ring of security and 
opportunity. Spanning nearly 5\1/2\ million square miles, the 
Arctic Ocean covers an area roughly 1\1/2\ times the United 
States, and half the size of the African continent. It is a 
region we cannot ignore.
    My testimony provides an overview of key issues facing the 
United States, other Arctic and non-Arctic nations. I'd like to 
reconceptualize the risks, the realities, and the opportunities 
in the Arctic. I provide a new framework called Navigating the 
Arctic's 7C's. The Cs are climate, commodities, commerce, 
connectivity, communities, cooperation, and competition. To 
effectively protect the homeland by addressing the challenges 
and opportunities of a transformed Arctic, the United States 
must thoroughly consider how it navigates the Arctic's 7Cs.
    The first C is climate. You will hear more about that in a 
moment. The climate change is real, it is rapid, and it is 
palpable. According to NASA, September Arctic Ocean ice extent 
has decreased from about 3 million square miles in 1980 to less 
than 2 million square miles this month. The latest IPCC report 
found with high confidence that the Arctic is warming 2 to 3 
times as fast as the rest of the planet.
    The second C is commodities. According to the USGS, the 
Arctic is estimated to hold 13 percent of the world's 
undiscovered oil and 30 percent of the world's undiscovered 
natural gas. The increased availability of these resources due 
to the rapid thaw in the Arctic has reenergized the global 
market's interest in the Arctic. This interest is predicted to 
endure, particularly in the wake of the recent attack on the 
Saudi Arabian oil facilities.
    The third C is commerce. Russia's Yamal Peninsula is now 
emblematic of the new global Arctic. For example, China owns 
nearly 30 percent of the initial Yamal LNG project; and Arctic 
LNG tankers are built in the shipyards of South Korea. 
Meanwhile, the United States does not have a major deepwater 
port along 1,500 nautical miles of its Arctic coastline from 
Dutch Harbor to Prudhoe Bay along the North Slope. Without a 
viable deepwater port, or strings of ports in the U.S. Arctic, 
commerce, search and rescue, and National security interests 
will not be met. The June, 2019, National Defense Authorization 
Act includes, ``requirements to locate and designate one or 
more U.S. strategic ports.''
    The fourth C, connectivity. We tend to think of 
connectivity just as an internet connection; but we should 
focus on a broader application of connectivity, addressing both 
digital and physical infrastructure. We do not have a digital 
or information divide in America's Arctic. We have a digital 
and information abyss. Less than 5 percent of the U.S. Maritime 
Arctic is charted to modern international standards. We lack 
the basic information about our Arctic domain. Insufficient 
access to reliable internet connectivity hinders education, 
commerce, search and rescue, and impedes informed 
infrastructure development and maintenance.
    The fifth C is communities. The transformation of the 
Arctic most acutely affects community in the region. The U.S. 
Army Corps of Engineers has identified 31 Alaskan communities 
and seriously threatened by environmental change and in 
imminent need for relocation. These threatened communities are 
similar, perhaps, to those in New Orleans, or even a future 
Miami.
    Six, cooperation. For over two decades, the Arctic Council, 
a consensus-driven body, has fostered and maintained 
international dialog, research efforts, and binding agreements 
among the members, including Russia. Cooperation also exists 
within the Arctic Coast Guard forum with representation from 
each Arctic nation. The Arctic region is the only place, aside 
from the International Space Station, where the United States 
and Russia have maintained long-term cooperation, even in times 
of high tension.
    Finally, Mr. Chairman, my final C is competition. The 
ability to project power in the Arctic can be measured in a 
number of ways, including a Nation's ability to operate in the 
region. China, which in 2019, as you noted, proclaimed itself a 
near-Arctic State--and, Mr. Chairman, I am a geographer. They 
are not a near-Arctic State. Currently has 4 icebreakers and is 
developing 2 new icebreakers--1, nuclear-powered. Russia 
operates, as you noted, over 50 icebreakers with 6 under 
construction and 12 more planned. Russia is also revitalizing 
Soviet-era military installations, and establishing new assets 
along its Northern Sea route with new military bases from Franz 
Josef Land to Wrangel Island. This denotes Russia's intent and 
ability to maintain premier influence in the Arctic. The U.S. 
Government, by comparison, as you noted, has 2 icebreakers and 
is cannibalizing parts from the dry-docked Polar Sea to 
maintain 1 single heavy icebreaker, the Polar Star.
    The recent funding for an additional U.S. icebreaker or 
polar security cutter is a step forward. The U.S. Coast Guard's 
2019 Arctic Strategic Outlook describes the need for 6 new 
polar security cutters, which will help support our homeland 
security requirements and provide much-needed domain presence.
    We should share a sense of urgency to see our polar 
security cutter fleet fully funded and in service sooner rather 
than later.
    In conclusion, Mr. Chairman, we often hear that the Arctic 
is an emerging issue. I disagree. The Arctic has emerged. As I 
have explained, it is no longer an isolated, remote region. 
Rather, it is a critical component of our global, political, 
economic, social, physical, and security landscape. The region 
is experiencing rapid and dynamic change; and these 7 unique 
drivers, these Arctic 7Cs, help frame these pressing global 
issues in a way that may help to better understand and address 
our future Arctic.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Sfraga follows:]
                  Prepared Statement of Michael Sfraga
                           September 19, 2019
                              introduction
    Good afternoon Chairman Correa, Ranking Member Lesko, and 
distinguished Members of the subcommittee. My name is Mike Sfraga. I am 
the director of the Polar Institute and the director of the Global Risk 
and Resilience Program at the Woodrow Wilson Center. I also serve as 
co-lead scholar for the Department of State's Fulbright Arctic 
Initiative. I am honored to testify on the subject ``The Northern 
Northern Border: Homeland Security Priorities in the Arctic, Part I.''
    As we convene today, we are witnessing the opening of a new ocean: 
A fourth accessible, maritime border for the United States. The Arctic 
Ocean joins the Atlantic Ocean, Gulf of Mexico, and Pacific Ocean as a 
critical geographic component of our country's maritime ring of 
security and opportunity. Spanning nearly 5\1/2\ million square miles, 
the Arctic Ocean covers an area roughly 1.5 times the size of the 
United States and nearly half the size of the African Continent. It is 
a region we cannot ignore.
    The Department of Homeland Security's Strategic Plan for fiscal 
years 2020-2024 is a helpful filter through which my testimony should 
be considered. The DHS Strategic Plan calls for confronting a ``complex 
threat landscape'' by establishing ``a clear strategic vision that 
achieves and advances our Department's essential mission by placing 
American safety and security first.'' One of the guiding principles 
includes championing `` `Relentless Resilience' for all threats and 
hazards.'' The Arctic, including Alaska, the State by which the United 
States is an Arctic nation, is experiencing rapidly-evolving threats--
and opportunities--that we must recognize and address.
    My testimony provides an overview of key issues facing the United 
States, and other Arctic and non-Arctic nations. To re-conceptualize 
the realities, risks, and opportunities in the Arctic, I provide a 
framework called Navigating the Arctic's 7Cs.
    The 7Cs are: (1) Climate, (2) Commodities, (3) Commerce, (4) 
Connectivity, (5) Communities, (6) Cooperation, and (7) Competition. To 
effectively protect the homeland by addressing the challenges and 
opportunities of a transformed Arctic, the United States must 
thoroughly consider how it navigates the Arctic's 7Cs.
1. Climate
    Climate change is real, rapid, and palpable. According to NASA, 
September Arctic Ocean ice extent has decreased from about 3 million 
square miles in 1980 to less than 2 million square miles this month. 
The latest IPCC report found with high confidence that the Arctic is 
warming 2 to 3 times faster than the global average. Associated sea ice 
decline has many implications for the United States, including: A more 
accessible border along the Alaska's coastline; increased risk to 
mariners; stronger and more frequent storms; threats to coastal 
communities due to coastline and permafrost degradation; and, shifting 
subsistence patterns.
    I recommend, as one example of cross-walking Federal 
recommendations and efforts related to the Arctic, a review of the 
United States Arctic Research Commission's Report on the Goals and 
Objectives for Arctic Research 2019-2020, where you may find 9 
recommendations that enhance the Nation's ability to ``Observe, 
Understand, and Forecast Arctic Environmental Change.''
2. Commodities
    According to USGS, the Arctic is estimated to hold 13 percent of 
the world's undiscovered oil, 30 percent of the world's undiscovered 
natural gas, and 20 percent of the undiscovered natural gas liquids. 
The increased availability of these resources due to the rapid ice thaw 
has reenergized the global market's interest in the Arctic for a source 
of these commodities. This interest is predicted to endure--
particularly in the wake of the recent attack on Saudi Arabian oil 
facilities.
    The U.S. Arctic Research Commission's 2019-2020 document notes 5 
recommendations to advance our understanding of Arctic natural 
resources and may help shape the committee's further work in this area.
3. Commerce
    There has been a 5-fold increase in commercial activity along 
Russia's Northern Sea Route (NSR) since 2014, primarily driven by 
resource extraction and subsequent transport. According to Business 
Index North, 22,022 voyages with 20.1 million tons of freight transited 
the NSR in 2018--twice the tonnage of 2017. Russia derives an estimated 
20 percent of its GDP and 30 percent of its exports from the Arctic--
and aims to quadruple the cargo to 80 million tons per year by 2024. 
Russia is building out their Arctic infrastructure to support such 
activities--the United States is not.
    Russia's Yamal Peninsula, an epicenter of this commerce, is now 
emblematic of the new, global Arctic--for example China owns a nearly 
30 percent stake of the initial Yamal LNG project, and Arctic LNG 
tankers are built in the shipyards of South Korea. Meanwhile, the 
United States does not have a major deep-water port along 1,500 
nautical miles of its Arctic coastline: From Dutch Harbor to Alaska's 
North Slope. Without a viable deep-water port or string of ports--in 
the U.S. Arctic--commerce, search-and-rescue, and National security 
interests will not be met. The June 2019 National Defense Authorization 
Act includes ``requirements to locate and designate `one or more' US 
strategic ports in the Arctic.''
4. Connectivity
    There are many ways to describe connectivity in the Arctic context. 
We tend to think of connectivity as just an internet connection, but we 
should focus on a broader application of connectivity--addressing both 
digital and physical infrastructure.
    We do not have a digital or information divide in America's 
Arctic--we have a digital and information abyss. Less than 5 percent of 
the U.S. maritime Arctic is charted to modern international standards; 
we lack basic information about our Arctic domain. Insufficient access 
to reliable internet connectivity hinders education, commerce, search-
and-rescue, and impedes informed infrastructure development and 
maintenance.
5. Communities
    The transformation of the Arctic most acutely affects communities 
in the region. The U.S. Army Corps of Engineers has identified 31 
Alaskan communities as seriously threatened by environmental change and 
in imminent need of relocation. In other words, 31 communities need to 
vacate the land their ancestors lived on for thousands of years. These 
threatened communities are similar to those in New Orleans and perhaps 
a future Miami. It is the mission of the Department of Homeland 
Security to guarantee a safe and secure environment to all American 
communities, including those in the Arctic.
6. Cooperation
    There is a high degree of cooperation between the 8 Arctic nations, 
principally through the Arctic Council. For over 2 decades, this 
consensus-driven body has fostered and maintained international dialog, 
research efforts, and binding agreements among the members, including 
Russia. Cooperation also exists within the Arctic Coast Guard Forum, 
with representation from each Arctic nation. The Arctic region is the 
only place, aside from the International Space Station, where the 
United States and Russia have maintained long-term cooperation, even in 
times of high tension.
    U.S. participation and leadership in the Arctic Council and Arctic 
Coast Guard Forum is in our Nation's best interest. These entities 
reinforce a rules-based governance structure for the Arctic Ocean, and 
help to effectively mitigate and address the impacts of a warming 
Arctic.
7. Competition
    The ability to project power in the Arctic can be measured in a 
number of ways, including a nation's ability to operate in the region. 
A lens through which we may consider this matter includes the number of 
icebreakers in service and planned by the United States, Russia, and 
China.
    China, which in 2018 proclaimed itself a ``Near-Arctic State,'' 
currently has 4 icebreakers and is developing 2 new icebreakers, 1 to 
be nuclear-powered. This is indicative of China's approach to the 
Arctic--a long-term, carefully crafted, and purposeful strategy to 
secure a diverse energy portfolio, presence, and regional influence 
through economic development.
    Russia operates 53 icebreakers, with 6 under construction and 12 
more planned. Russia is also revitalizing Soviet-era military 
installations and establishing new assets along the NSR, with new 
military bases on Franz Josef Land, Kotelny, and Wrangel Island. This 
denotes Russia's intent and ability to maintain premier influence in 
the Arctic.
    The U.S. Government by comparison has 2 icebreakers, and is 
cannibalizing parts from the dry-docked Polar Sea to maintain our 
single heavy icebreaker--the Polar Star. The recent funding for an 
additional U.S. icebreaker or ``Polar Security Cutter'' is a small step 
forward. The U.S. Coast Guard's 2019 Arctic Strategic Outlook describes 
the need for 6 new Polar Security Cutters, which will help support our 
homeland security requirements and provide much-needed domain presence.
    We should share a sense of urgency to see our Polar Security Cutter 
fleet fully funded and in service sooner rather than later.
                               conclusion
    Mr. Chairman, we often hear the Arctic is an emerging issue. I 
disagree. The Arctic has emerged. As I have explained, it is no longer 
an isolated or remote region; rather it is a critical component of our 
global political, economic, social, physical, and security landscape. 
The region is experiencing rapid and dynamic change and these 7 unique 
drivers, the Arctic's 7Cs, help frame these pressing global issues in a 
way that may help to better understand and address our future Arctic.

    Mr. Correa. Thank you, Dr. Sfraga.
    Now our next witness, Dr. Abbie Tingstad, the associate 
research department director of the Engineering and Applied 
Sciences at the RAND Corporation.
    Dr. Tingstad has authored a number of publications on the 
Arctic, and she has done extensive research on the Coast Guard 
capabilities, international cooperation, and the changing 
strategic environment in the Arctic.
    Welcome.

 STATEMENT OF ABBIE TINGSTAD, SENIOR PHYSICAL SCIENTIST, RAND 
                          CORPORATION

    Ms. Tingstad. Thank you very much, Chairman Correa, Ranking 
Member Lesko, and other distinguished Members of the committee. 
I appreciate the opportunity to appear before you today.
    We have known for many years that the Arctic region is 
sensitive to environmental shifts, and today it is experiencing 
one of the most rapid rates of climate change in the world. 
These changes in the Arctic have created both homeland security 
and international issues. The Northern Rim of the United States 
is already an area of concern for illegal, unreported, and 
unregulated fishing, search and rescue, and environmental 
protection. In the future, trafficking and terrorism-related 
problems could arise as well. In addition, the Arctic presents 
possibilities for both engagement and conflict, with Russia and 
China in and near U.S. territory.
    Why does climate change in the Arctic matter, and what 
could the United States do about it from a security 
perspective? In the past, vast, harsh conditions, persistent 
sea ice, and limited opportunities for economic development 
have served as a deterrent to presence in the region. Climate 
is changing patterns of physical access to the Arctic. Maritime 
access is increasing, although unevenly, and land-based access 
in some areas is also decreasing.
    But climate is not the sole driver of change in the Arctic. 
For example, technology is also very important. New sensors and 
autonomous vehicles, for example, could increase the 
accessibility of the Arctic across land, sea, and air. Other 
change factors also motivate or discourage access to the 
region, such as the available and cost of energy resources, as 
well as indigenous autonomy and partnerships.
    Among others, Russia and China are definitely taking 
advantage of opportunities in the Arctic. Russia is 
revitalizing fixed and mobile infrastructure for commercial and 
military use. For its part, China has been promoting the Polar 
Silk Road and engaging in Arctic affairs through the Arctic 
Council, among other things.
    Our work on the durability of Arctic cooperation among 
stakeholders reveal that an increase in maritime safety and 
security incidents might be most likely to bring Arctic 
security into question for the United States. Examples of such 
incidents include maritime vessel collisions, dark vessels 
engaging in illegal fishing or drug running, oil spills, and 
acts of terrorism or piracy.
    Nations that appear to lack adequate capabilities to 
prevent and respond to these types of incidents will face a 
real or perceived security void in the Arctic.
    This will result in both domestic and international 
consequences to include potential declines in well-being for 
indigenous communities, and a security void might also allow 
other nations, notably China and Russia, to justify an increase 
in presence and influence in the region.
    Now that environmental access barriers are falling, we must 
ask: How does climate change alter the needs and abilities of 
the U.S. Government to carry out responsibilities and use its 
authorities in the Arctic? Ultimately, the United States must 
decide on the right level of National capability; and by virtue 
of its history and authorities, the U.S. Coast Guard will play 
a large role in any steps forward enhancing governance in the 
region.
    In our work on U.S. Coast Guard capabilities, several 
assets arose in our analysis as being particularly pertinent to 
Arctic operations. In addition to existing and planned 
icebreakers, these include helicopters, aircraft, airfields, 
National security cutters, medical evacuation capabilities, 
satellite and other communication networks, rescue coordination 
centers, and various types of specialist personnel, as well as 
data.
    Importantly, no single one of these capabilities arose as a 
silver bullet; and there are also many gaps still existing for 
the Coast Guard and others in the Arctic as well to include 
communications, domain awareness, and response. Specific types 
of mitigation options that we identified in our work include a 
diverse range, including items such as communications 
infrastructure, remotely controlled air, sea, and amphibious 
craft for domain awareness, updating data gathering and 
database construction processes to enable fusion of 
information, and sustaining both longer-term operations, as 
well as agile first response capability, among a series of 
other things.
    It is important to recognize that concerns about Arctic 
security in closing capability caps are more than just Coast 
Guard issues; they are matters of National relevance. In 
addition to taking specific actions outlined such as those I 
have just mentioned, the United States has the opportunity to 
continue work with the Arctic Council and Arctic Coast Guard 
Forum. Finding ways to keep discussion channels open for 
important military security communications is also vital. The 
United States might also reconsider ratifying the U.N. 
Convention on the Law of the Sea.
    This is a time for the United States to continue engaging 
in the Arctic. I will conclude by saying that fixing the 
security void includes providing prevention and response 
services that Americans expect from their government, whether 
they live in Los Angeles, Houston, New York, or Utqiagvik, 
Alaska.
    Thank you.
    [The prepared statement of Ms. Tingstad follows:]
              Prepared Statement of Abbie Tingstad\1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of the RAND Corporation or any of the sponsors of its research.
    \2\ The RAND Corporation is a research organization that develops 
solutions to public policy challenges to help make communities 
throughout the world safer and more secure, healthier, and more 
prosperous. RAND is nonprofit, nonpartisan, and committed to the public 
interest.
---------------------------------------------------------------------------
                           September 19, 2019
    Chairman Correa, Ranking Member Lesko, and other distinguished 
Members of the committee, thank you for the opportunity to appear 
before you this afternoon. We have known for many years that the Arctic 
region is sensitive to environmental shifts; today, it is experiencing 
one of the most rapid rates of climate change in the world. These 
changes in the Arctic have created both homeland security and 
international issues. The northern rim of the United States is already 
an area of concern for illegal, unreported, and unregulated (IUU) 
fishing; search and rescue; and environmental protection. In the 
future, trafficking- and terrorism-related problems could arise as 
well. In addition, the Arctic presents possibilities for both 
engagement and conflict with Russia and China in and near U.S. 
territory.\3\
---------------------------------------------------------------------------
    \3\ Abbie Tingstad, Stephanie Pezard, and Scott Stephenson, ``Will 
the Breakdown in U.S.-Russia Cooperation Reach the Arctic?,'' RAND 
Blog, October 12, 2016. As of September 16, 2019: https://www.rand.org/
blog/2016/10/will-the-breakdown-in-us-russia-cooperation-reach-
the.html.
---------------------------------------------------------------------------
    Why does climate change in the Arctic matter, and what does the 
United States need to do about it from a security perspective? I would 
like to present the following points:
  <bullet> The Arctic's on-going changes in climate promote both 
        challenges and opportunities; these are also influenced by 
        technology, economic, and other factors.
  <bullet> Climate change in the Arctic matters for U.S. security 
        because of the potential for a real or perceived security void 
        to develop in the absence of additional action.
  <bullet> Averting a security void requires sufficient capability to 
        promote safety, security, and stewardship in the region; 
        multiple types of investments are needed to do this.
         changing arctic will foster problems and opportunities
    The Arctic has recently attracted so much attention--from foreign 
governments, commercial interests, and, increasingly, the U.S. 
Government--because climate is changing patterns of physical access to 
the region, altering the historical, broadly-held perception of the 
Arctic as a relatively static place.\4\ The environment for native and 
other local stakeholders is changing at an intensifying pace.\5\ One 
reason for this is diminished ice-albedo feedback; less ice means that 
a smaller fraction of solar energy is mirrored back into space, 
exacerbating the warming of the Arctic environment.\6\
---------------------------------------------------------------------------
    \4\ Ron Kwok, ``Arctic Sea Ice Thickness, Volume, and Multiyear Ice 
Coverage: Losses and Coupled Variability (1958-2018),'' Environmental 
Research Letters, Vol. 13, 2018.
    \5\ Josefino C. Comiso and Dorothy K. Hall, ``Climate Trends In The 
Arctic as Observed From Space,'' 2014, WIREs Climate Change, Vol. 5, 
2014, pp. 389-409; R.K. Pachauri and L.A. Meyer, eds., Climate Change 
2014: Synthesis Report. Contribution of Working Groups I, II, and III 
to the Fifth Assessment Report of the Intergovernmental Panel on 
Climate Change, Geneva, Switzerland: Intergovernmental Panel on Climate 
Change, 2014.
    \6\ Comiso and Hall, 2014.
---------------------------------------------------------------------------
    In the past, the Arctic's vast, harsh conditions, its persistent 
sea ice, and its limited opportunities for economic development have 
served as a deterrent to Arctic presence. Though the Arctic was 
strategic during the Cold War (Arctic nations still maintain military 
assets in and around the area), the region itself was not a driver of 
tensions so much as a battleground in a larger conflict. It is time to 
re-evaluate security needs and capabilities now that warmer 
temperatures are opening the Arctic to a different set of challenges 
and opportunities.
    The long distances between remote inhabited areas in the North 
American Arctic will remain, and the environment across the region will 
still be relatively harsh. Farmers in Greenland now grow potatoes and 
Saami reindeer herders worry about newly-invading pests, but the Arctic 
will not become a tropical paradise in our lifetimes. Warming has an 
uneven effect on access to the Arctic--diminishing sea ice increases 
maritime access, but thawing permafrost and softer ice roads inhibit 
access via land. Even with general icemelt, some areas of the maritime 
Arctic--notably the Canadian archipelago and northwestern Greenland--
are projected to experience particularly persistent sea ice.
    Climate is not the sole driver of change shaping the Arctic's 
future.\7\ Technology, even that which is not groundbreaking in today's 
terms, is influencing access. Ships' hulls are hardened to break ice, 
and sections of the Trans-Alaska Pipeline running through permafrost 
are elevated on vertical support members. New sensors and autonomous 
vehicles will increase the accessibility of Arctic land, air, and sea, 
even if those areas are not directly accessed by humans. Growing 
communications networks also will enhance reach across, into, and out 
of the Arctic.
---------------------------------------------------------------------------
    \7\ Stephanie Pezard, Abbie Tingstad, Kristin Van Abel, and Scott 
Stephenson, Maintaining Arctic Cooperation with Russia: Planning for 
Regional Change in the Far North, Santa Monica, Calif.: RAND 
Corporation, RR-1731-RC, 2017. As of April 29, 2019: https://
www.rand.org/pubs/research_reports/RR1731.html.
---------------------------------------------------------------------------
    Other change factors motivate or discourage access to the region. 
For example, the availability and cost of energy resources influence 
decisions on whether or how to operate in the Arctic.\8\ Indigenous 
autonomy and partnerships also affect whether and how areas of the 
Arctic are opened or maintained for business. The vast majority of 
Greenlanders are indigenous, and Nuuk increasingly manages the 
country's affairs, although Copenhagen still handles international 
relations and external security. Canada's Inuit also have an 
increasingly strong voice in their portions of the Arctic.
---------------------------------------------------------------------------
    \8\ Pezard et al., 2017.
---------------------------------------------------------------------------
    Among others, Russia and China are definitely taking advantage of 
economic opportunities in the Arctic. Russia has been increasing its 
military capabilities there, forming a northern command, establishing 
two Arctic brigades, developing infrastructure, and deploying and 
upgrading military assets.\9\ The Russian government and economic 
sector is also investing in fixed and mobile infrastructure for 
civilian or commercial use, and some of this infrastructure appears to 
be dual-use. For example, this year, the Russian Ministry of Natural 
Resources and Environment released a plan for further developing 
mineral resources in the Arctic and the logistics for bringing them to 
market via the Northern Sea Route.\10\
---------------------------------------------------------------------------
    \9\ Andrew Osborn, ``Putin's Russia in Biggest Arctic Military Push 
Since Soviet Fall,'' Reuters, January 30, 2017. As of April 22, 2019: 
https://www.reuters.com/article/us-russia-arctic-insight/putins-russia-
in-biggest-arctic-military-push-since-soviet-fall-idUSKBN15E0W0.
    \10\ ``Russia Releases Comprehensive Plan for Arctic Logistics,'' 
Maritime Executive, March 19, 2019. As of April 22, 2019: https://
www.maritime-executive.com/article/russia-releases-comprehensive-plan-
for-arctic-logistics.
---------------------------------------------------------------------------
    China has been promoting the idea of a ``Polar Silk Road'' in 
recent years. This builds on China's decades-long interest in polar 
science and its more recent participation as an observer in Arctic 
governance issues through the Arctic Council. In its 2018 Arctic 
policy, China reaffirmed its interests in participating in Arctic 
governance and development.\11\ China's investment in the Yamal Liquid 
Natural Gas project with Russia was substantial. Other investments have 
been more modest, and some have not come to fruition (such as the 
purchase of an unoccupied naval base in Greenland and the now-canceled 
development of a resort in Svalbard).
---------------------------------------------------------------------------
    \11\ People's Republic of China, State Council, ``China's Arctic 
Policy,'' white paper, January 26, 2018. As of April 22, 2019: http://
english.gov.cn/archive/white_paper/2018/01/26/con- 
tent_281476026660336.htm.
---------------------------------------------------------------------------
    The economic promise of shipping lanes, hydrocarbon extraction, and 
fishing all come with their own challenges. These activities raise the 
risk of safety hazards and toxic spills. Furthermore, any increased 
militarization of the Arctic raises the chance of an unintended 
military confrontation in the Arctic.
    We must consider whether and how to provision basic governance in a 
changing Arctic. Such governance includes U.S. Coast Guard activities, 
such as search and rescue, drug interdiction, and fisheries 
enforcement. Although the Coast Guard already operates in the region, 
its current resources are limited, and it could be overwhelmed with a 
rapid increase in demand for service capabilities. Here, we explore the 
concept of an Arctic security gap and some of the capability shortfalls 
that may inhibit the United States' ability to avoid it--assuming this 
is something the Nation decides to prioritize.
          does the united states face an arctic security gap?
    Our work on the durability of Arctic cooperation among 
stakeholders--particularly among nation-states--revealed that, although 
natural resources and territorial claims are important, they might have 
less potential to escalate tensions over the next 2 decades than an 
increase in maritime safety and security incidents.\12\ Examples of 
such incidents include maritime vessel collisions, ``dark''\13\ vessels 
engaging in IUU fishing or drug running, oil spills, and acts of 
terrorism or piracy. Nations that appear to lack adequate capabilities 
to prevent and respond to these types of incidents will face a real or 
perceived security void in the Arctic. This will have consequences 
domestically as well as internationally. Economic opportunities, such 
as resource extraction, legal fishing, trans-Arctic shipping, and wind 
and data farms, could stagnate. Indigenous community wellbeing could 
decline, and broader social problems, such as violent crime and illegal 
drug use, might be exacerbated. A security void might also allow other 
nations, notably China and Russia, to justify an increase in presence 
and influence in the region.
---------------------------------------------------------------------------
    \12\ Stephanie Pezard, Abbie Tingstad, and Alexandra Hall, The 
Future of Arctic Cooperation in a Changing Strategic Environment: 
Insights from a Scenario-Based Exercise Organised by RAND and Hosted by 
NUPI, Santa Monica, Calif.: RAND Corporation, PE-268-RC, 2018. As of 
April 29, 2019: https://www.rand.org/pubs/perspectives/PE268.html.
    \13\ Not emitting via the Automatic Identification System (AIS) 
used to locate maritime vessels. AIS relies on the cooperative or 
voluntary use of the system.
---------------------------------------------------------------------------
    Now that environmental access barriers are falling, we must ask: 
How does climate change alter the needs and abilities of the U.S. 
Government to carry out responsibilities and use its authorities in the 
Arctic? It is imperative to know which key Government responsibilities 
and authorities can be carried out in the Arctic and under which on-
going or emerging circumstances they will be necessary. For example, 
defending the Nation's exclusive economic zone represents a small 
fraction of the Coast Guard's discretionary budget. Should this be 
increased--either in total dollar amount or as a fraction of the 
budget--and why?
    Answering these types of questions is a necessary step toward 
understanding whether the United States has a security gap in the 
Arctic and what the nature of any gap is. Such a gap, whether perceived 
or real, could lead to undesirable and avoidable consequences. 
Ultimately, however, the United States must decide on the right level 
of capability in the Arctic. By virtue of its operational history, 
statutory missions, and authorities, the Coast Guard will play a large 
role in any steps toward enhancing governance activities in the Arctic. 
However, our recent work on Coast Guard capability gaps in the Arctic 
reveals that this Department of Homeland Security component and 
military service is already operating at a disadvantage in the 
region.\14\
---------------------------------------------------------------------------
    \14\ Abbie Tingstad, Scott Savitz, Kristin Van Abel, Dulani Woods, 
Katherine Anania, Michelle D. Ziegler, Aaron C. Davenport, and 
Katherine Costello, Identifying Potential Gaps in U.S. Coast Guard 
Arctic Capabilities, Santa Monica, Calif.: RAND Corporation, RR-2310-
DHS, 2018. As of April 29, 2019: https://www.rand.org/pubs/
research_reports/RR2310.html.
---------------------------------------------------------------------------
    The numbers and capabilities of icebreaking vessels are frequently 
cited as a proxy for Arctic operating capability or as a more general 
reflection on Arctic interest or influence.\15\ Differences between 
nations are acute; Russia holds a dramatic lead over all others with 
dozens of these ships, including several newer ones, some of which are 
nuclear-powered. In contrast, the United States has only 2 operational 
icebeakers--the heavy icebreaker U.S. Coast Guard Cutter (USGCG) Polar 
Star (commissioned in 1976) and the medium icebreaker USGCG Healy 
(commissioned in 1999). More are planned through the Polar Security 
Cutter program.\16\ Canada, Finland, and Sweden all have more 
operational icebreakers than the United States. This summer, China 
operationalized its second polar icebreaker, the first to be made in 
China.
---------------------------------------------------------------------------
    \15\ Charlie Gao, ``The `Icebreaker Gap': How Russia is Planning to 
Build More Icebreakers to Project Power in the Arctic,'' National 
Interest, August 19, 2018. As of March 19, 2019: https://
nationalinterest.org/blog/buzz/icebreaker-gap-how-russia-planning-
build-more-icebreakers-project-power-arctic-29102.
    \16\ U.S. Coast Guard, ``Polar Security Cutter Program,'' webpage, 
undated. As of September 16, 2019: https://www.dcms.uscg.mil/Our-
Organization/Assistant-Commandant-for-Acquisitions-CG-9/Programs/
Surface-Programs/Polar-Icebreaker.
---------------------------------------------------------------------------
    However, the availability of these specialized ships is just one of 
many areas in which the United States may face capacity or capability 
shortfalls. Generally speaking, infrastructure--ports, onshore 
facilities, roads, railroads, airfields, hospitals, and urban centers--
is much thinner on the ground in the North American Arctic. Russia and 
Northern Europe have booming cities and industries in the far north, 
whereas the United States and Canada have far lower densities of 
population. This limits the ability of U.S. organizations, such as the 
Coast Guard, to carry out their roles and responsibilities in the 
region. For example, northern Alaska has few facilities and airfields 
that can support larger aircraft operations and maintenance. This is 
one limitation on the scope and scale of Coast Guard summertime 
presence (the Coast Guard budget is another). In some cases, more than 
one stakeholder might need access to limited infrastructure in northern 
Alaska, leading to competition for use.
             our path forward requires multiple investments
    On-going regional changes mean that U.S. efforts in the Arctic will 
require regular access to the services common to other parts of the 
United States. For example, most of the United States enjoys access to 
year-round search and rescue and disaster relief support from a range 
of national, State, and local entities. Several potential gaps might 
stand in the way of Coast Guard--among other--operations in the Arctic. 
The prioritization of these gaps in the context of other National needs 
must be considered in decisions moving forward.
    We found that no single capability worked in every Arctic scenario 
or acted as a ``silver bullet'' to mitigate every shortfall. For this 
study, we defined capability broadly, as a means to accomplish a 
mission, function, or objective.\17\ Capabilities included individual 
materiel assets, such as icebreakers and helicopters; fixed 
infrastructure, such as ports and airfields; and organizations, 
agreements for cooperation, and people (including training).
---------------------------------------------------------------------------
    \17\ Department of Homeland Security, Department of Homeland 
Security Manual for the Operation of the Joint Requirements Integration 
and Management System, Washington, DC, DHS Instruction Manual 107-01-
001-01, April 4, 2016, p. 3.
---------------------------------------------------------------------------
    First, we looked at the existing capabilities that the Coast Guard, 
Federal interagency partners, local communities, and commercial 
providers could use to add value in different scenarios. In addition to 
existing icebreakers, the most valuable assets included MH-60 Jayhawk 
helicopters; HC-130 aircraft; airports and airfields; ports; National 
Security Cutters; drones, medical evacuation capabilities; satellite 
and other communications networks; rescue coordination centers; Coast 
Guard sector specialist personnel; and data on maritime traffic, 
weather, ice, and other conditions important for on-scene response. The 
variety of these examples help highlight the diversity of capabilities 
that are needed for Arctic operations.
    Second, we examined shortfalls in the existing capabilities within 
the study scenarios. We found that the shortfalls varied as much or 
more as the existing capabilities. In general, these gaps--defined as 
capabilities not readily available or planned to be available to the 
Coast Guard--fell into the broad categories of communications, 
awareness, and response.
    Communications are critical for Coast Guard (and a variety of 
other) missions. Problems in the Arctic include patchy and unreliable 
voice communications and extremely limited or nonexistent bandwidth.
    An important aspect of awareness is understanding and assessing 
situations. In the Arctic, the term ``operating blind'' is used to 
describe the level of awareness: Threats and hazards are often poorly 
understood, and those that are identified cannot be regularly monitored 
because the capacity and capability to do so do not exist. There is 
particular concern about threats and hazards that do not or cannot 
actively emit signals, such as ``dark'' vessels and fast-moving ice. 
The ability to fuse information from individual data streams into a 
unified picture of activity and conditions is also challenging.
    Finally, the ability to respond to a threat or hazard in the Arctic 
is extremely limited and strongly depends on the proximity to the 
incident location of scarce material assets, people, and supporting 
infrastructure. Naturally, reducing the incidence of threats and 
hazards is an important first step. However, if prevention fails, 
ensuring that the right people and assets are available and can be 
deployed rapidly to the right place is necessary. Responders must 
consider harsh operating conditions and the few resources available for 
coordination. Ensuring sufficient sustainment of operations is the next 
challenge. Access to appropriate follow-up materiel and procedures, 
including medical care and hazardous material clean-up, is not 
guaranteed.
    This study was not intended to provide recommendations on specific 
ways to mitigate gaps. However, the diversity of ways in which workshop 
participants elected to shore up capability and capacity in the context 
of different scenarios alludes to a rich set of possibilities. No one 
type of mobile asset, fixed infrastructure, organization, 
collaboration, or other entity satisfied every potential gap. Rather, 
combining existing capabilities and increasing their capacities, while 
diversifying capabilities to support communications, awareness, and 
response, is necessary to tackle current and future vulnerabilities in 
the Arctic.
    Specific types of mitigation options considered include the 
following:
  <bullet> installing additional communications infrastructure and 
        leveraging the growing number of commercial communications 
        satellites in polar orbits
  <bullet> exercising communications tactics, techniques, and 
        procedures to train service members in overcoming decision-
        making challenges associated with weak communications channels
  <bullet> investing in remotely-controlled air, sea, and amphibious 
        craft for persistent wide-area surveillance, especially if 
        these assets are networked together and to sensors on other 
        assets to provide a common operating picture
  <bullet> updating data-gathering and database construction processes 
        to enhance automation and improve data quality, make data 
        accessible, and fuse information into a common operating 
        picture
  <bullet> developing operating concepts, plans, and investment 
        strategies that recognize the need for agile first-response 
        assets as well as infrastructure and logistics to sustain 
        longer-term operations and (literally) conduct heavy lifting
  <bullet> investigating remotely-controlled airlift and oil-spill 
        response capability
  <bullet> adding small-boat landing capability to icebreakers
  <bullet> increasing the number of forward operating locations and 
        resources, including local and mobile elements
  <bullet> prepositioning key response items in partner communities
  <bullet> enforcing new industry self-help regulations
  <bullet> improving long-term relationships with native communities 
        (including through additional Coast Guard cultural training).
    One issue that concerns me greatly is the characterization--in the 
media at least--of the United States' Arctic operating challenges as 
merely an ``icebreaker gap.''\18\ I do think that the United States is 
dangerously limited in its ability to break ice. However, while this 
generalization of Arctic challenges might be convenient, it distracts 
from the broader problem of systemic capability shortfalls, as detailed 
earlier.
---------------------------------------------------------------------------
    \18\ Gao, 2018.
---------------------------------------------------------------------------
    It is just as important to recognize that concerns about Arctic 
security and closing capability gaps are more than just Coast Guard 
issues--they are matters of National relevance. In addition to taking 
specific actions such as those outlined earlier, the United States has 
the opportunity to continue work in the Arctic Council and Arctic Coast 
Guard Forum. Finding ways to keep discussion channels open for 
important military security communications is also vital. The United 
States might also reconsider ratifying the United Nations Convention on 
the Law of the Sea. Historically, Arctic cooperation and governance has 
benefited when stakeholders operate under the same frameworks.
    Change anywhere necessitates a re-evaluation of security needs and 
capabilities. In this respect, the Arctic is not exceptional. Consider 
continuing efforts by the United States to re-evaluate military 
operations in anti-access environments in response to evolving threats 
or how the use of drone boats and synthetic drugs is challenging 
methods of drug interdiction.
    This is a time for the United States to continue engaging in the 
Arctic.\19\ Fixing the security void does not only involve military 
might, but also includes providing prevention and response services 
that Americans expect from their Government, whether they live in Los 
Angeles, Houston, New York, or Utqiagvik, Alaska.
---------------------------------------------------------------------------
    \19\ Pezard et al., 2017; Abbie Tingstad and Stephanie Pezard, 
``What Does `America First' Look Like in the Arctic?,'' RAND Blog, May 
25, 2017. As of September 16, 2019: https://www.rand.org/blog/2017/05/
what-does-america-first-look-like-in-the-arctic.html.

    Mr. Correa. Thank you, Dr. Tingstad, for your comments.
    Now I would like to call Dr. Victoria Hermann, who is the 
president and managing director of the Arctic Institute for 5 
minutes of comments.
    Dr. Hermann is research-focused on human development in 
resource economies. She was a fellow at the National Academies 
of Science, and is a Fulbright Scholar.
    Welcome.

STATEMENT OF VICTORIA HERMANN, PRESIDENT AND MANAGING DIRECTOR, 
                      THE ARCTIC INSTITUTE

    Ms. Hermann. Thank you, Chairman Correa, Ranking Member 
Lesko, distinguished Members of the committee. Thank you for 
the opportunity to appear before you this afternoon.
    As the president and managing director of a regional Arctic 
think tank, my research aims to identify the gaps in Federal 
support to enhance Arctic security, to augment emergency 
response, and to assist coastal Arctic villages in adapting to 
the impacts of climate change that we can no longer avoid.
    However, I live in Washington, DC, and, therefore, I cannot 
observe the day-to-day coastal and marine changes along Arctic 
coastlines that are the most immediate threat to our Northern 
Border.
    So, when I was invited to this hearing, I reached out to 
colleagues in Alaska from the Norton Sound to Bristol Bay, with 
a question: What is the most critical maritime security issue 
we should discuss here?
    Today, my testimony is guided by the many indigenous and 
local Arctic experts I have listened to and learned from. If 
there is one takeaway message from their message, it is this: 
For America's northernmost citizens, for the world's 
northernmost residents, climate change is already a life-
threatening everyday reality.
    The most recent NOAA Arctic report card delivered an 
unambiguous finding. The impacts of climate change are already 
forcing the region to undergo an unprecedented transition. 
Arctic air and sea temperatures are warming at more than twice 
the rate of the global average. The Arctic ocean has lost 95 
percent of its oldest documented sea ice. This new, more 
dangerous normal poses the greatest threat to human safety, to 
marine ecosystems, and to our capacity to respond to Maritime 
emergencies.
    In September, 2016, I first traveled to Nome, Alaska, a 
remote port city of 3,500 residents just south of the Arctic 
Circle. Through my research, I had the privilege of 
interviewing 20 local leaders to discuss how the settlement's 
infrastructure, population, and port are coping with the 
consequences of a changing climate. I believe that these 
interviews provide critical perspectives to support informed 
committee deliberations through three key findings:
    The first, Arctic coastal residents are the first 
responders to any maritime security threat. As Austin Ahmasuk, 
a lifelong Inupiaq hunter and community advocate, noted in his 
interview, ``As we looked at how things like oil or hazardous 
spills are treated in this region, we came to a very dramatic 
realization. We are the first responders, and we have few 
response assets to ensure healthy environments. Annually, 
14,000 to 18,000 gallons of spilled oil, or hazardous 
substances, occur in this region. We know our homelands and 
home waters, but over the last 2 years, we have not been able 
to speak at the table for our lands and waters.''
    Disaster response and search-and-rescue capabilities are 
only as strong as the commitments to communication channels, 
technical commitments, and infrastructure investments to 
support collaboration with community first responders on our 
Nation's Arctic coast lines. Better integrating and enhancing 
community-based observing networks as part of the Arctic Domain 
Awareness Center, a DHS Center of Excellence, offers one 
opportunity to address this issue if it is done in a way that 
makes local leaders feel valued and included in upfront 
decision making.
    No. 2, climate change is creating significant economic 
costs to U.S. coastal settlements and some local economic 
opportunity. However, at present, local economies are 
overburdened by costs, and are unable to capture economic gains 
due to a lack of strategic investment in infrastructure. This 
is, perhaps, best grounded by lifelong Bristol Bay commercial 
fisherman, Brett Veerhusen.
    ``The Bearing Sea and Aleutian Islands are some of the 
richest fishing grounds on earth, contributing to American and 
the world's food security. Increased vessel traffic through the 
Arctic poses both opportunities and challenges for our fishing 
fleets, but those challenges can be devastating if we cannot 
respond quickly to emergencies and protects those fisheries.''
    The third and final point: Arctic residents that act as 
first responders are living in a continual state of emergency 
from climate impacts. Coastal communities are facing threats to 
public safety, to food security, and traditional livelihoods 
from changing terrestrial and marine ecosystem conditions. 
Threats to human security and U.S. Arctic towns, villages, and 
cities, must be integrated into investments and policy 
decisions for a secure northern homeland.
    Just this morning a news headline read, ``Summer, 2019, was 
Hellish for the Arctic, the Front Line of Climate Change.'' The 
Arctic has generated more crisis headlines like this than any 
other region. Nonetheless, in Mr. Ahmasuk's words we struggle 
mightily to have our voices heard. The hearing today is absent 
of many voices of community first responders and indigenous 
knowledge-holders. It is incumbent upon us here in Washington, 
DC, to work harder to bring their voices to this table and to 
reach further to meet them at their tables above the Arctic 
Circle through field visits and hearings.
    As we work toward that goal of building a more inclusive 
dialog on maritime security and economic investment in 
transportation, I urge us all to consider how we can ensure 
every Arctic conversation and legislation is guided by those 
local leaders and made with reference to the climate impacts 
already costing billions of dollars in damages, multiplying 
security threats, and devastating traditional maritime 
livelihoods, not only for the 4 million people that call the 
Arctic home, but for communities across America, because what 
happens in the Arctic does not stay in the Arctic. It affects 
us all.
    Thank you.
    [The prepared statement of Ms. Hermann follows:]
            Prepared Statement of Victoria Herrmann \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of The Arctic Institute or any of the sponsors of its research.
    \2\ The Arctic Institute is an independent, nonprofit organization 
headquartered in Washington, DC with a network of researchers across 
the world with a mission is to help shape policy for a secure, just, 
and sustainable Arctic through objective, multidisciplinary research of 
the highest caliber.
---------------------------------------------------------------------------
                           September 19, 2019
    Chairman Thompson, Chairman Correa, distinguished Members of the 
committee, and my fellow Arctic collogues, thank you for the 
opportunity to appear before you this afternoon to listen, to discuss, 
and ultimately to learn how we--across civil society, Tribal councils, 
academia, and Congress--can work together to address the widening 
security threats to the 4 million people that call the Arctic home. If 
there is one thesis to take away from my testimony, it is this: For 
America's northernmost citizens, for the world's northernmost 
residents, climate change is already an everyday, life-threatening 
reality. It is incumbent upon those here today to safeguard American 
lives in the Arctic against the impacts we can no longer avoid, and 
empower local leaders and Alaska Native community champions as the 
first responders of maritime emergencies.
    The most recent annual U.S. National Oceanic and Atmospheric 
Administration Arctic Report Card, released in December 2018, delivered 
an unambiguous finding.\3\ The impacts of climate change are already 
forcing the circumpolar region to undergo an ``unprecedented 
transition'' in human history. As Arctic air and sea temperatures warm 
at more than twice the rate of the global average, the Arctic Ocean has 
lost 95 percent of its oldest documented sea ice. For the past 5 years 
(2014-2018), Arctic air temperatures have exceeded all previous records 
since 1900, and the 12 lowest sea ice extents in the satellite record 
have occurred in the last 12 years. Following the 2018 U.N. Special 
Report \4\ and the 4th U.S. National Climate Assessment,\5\ the Arctic 
Report Card was only the latest installment in a protracted series of 
disquieting findings that the Arctic has entered a new, more dangerous 
normal.
---------------------------------------------------------------------------
    \3\ https://www.arctic.noaa.gov/report-card.
    \4\ https://www.ipcc.ch/report/sr15/.
    \5\ https://nca2018.globalchange.gov/.
---------------------------------------------------------------------------
    The homeland security challenges raised by these scientific 
publications is clear: The dramatic changes brought about by Arctic 
warming pose the greatest threat to the stability of the region, and 
requires a whole-of-Government approach to address the human security, 
economic development, and marine environment dimensions of maritime 
security in a climate-changed Arctic.
    As the president and managing director of a regional Arctic think 
tank, much of my field and policy research focuses on the human 
security implications of a changing Arctic for remote Indigenous and 
non-Indigenous communities across the circumpolar north. In co-creating 
knowledge about the magnitude of more frequent and extreme slow and 
sudden onset disasters for Arctic settlements, my research goal is to 
identify gaps in Federal support to enhance coastal community 
resilience and adaptive capacity; to augment emergency response to slow 
and sudden onset climate disasters; and to capture localized economic 
potential with an ecologically sustainable framework.
    Today, my testimony will focus on community and transportation 
infrastructure investment to meet that goal. These insights are guided 
by the many Indigenous and local Arctic experts I have listened and 
learned from, and are technically grounded in a qualitative research 
project I completed to study the local consequences of sea level rise 
and shoreline erosion in communities across the United States and U.S. 
Territories.\6\ \7\ In 2016-2017 with the assistance of co-principle 
investigator Eli Keene, I conducted over 350 interviews with local 
American leaders to pinpoint the most pertinent social, economic, and 
community vulnerabilities to coastal environmental hazards. Sixty-five 
of these interviews were conducted in the State of Alaska. I believe 
that these interviews provide critical perspectives to support informed 
committee deliberations and decisions on maritime and transportation 
security issues for the Arctic. In particular, this testimony will 
emphasize the following points derived from these research interviews:
---------------------------------------------------------------------------
    \6\ www.americaserodingedges.org.
    \7\ https://www.nationalgeographic.org/find-explorers/victoria-
stephanie-herrmann.
---------------------------------------------------------------------------
    (1) Arctic residents, fishermen, mayors, and subsistence hunters 
        are the first responders to any maritime security threat in 
        American Arctic and Subarctic waters. It is critical for 
        maritime security operations to bolster technical, financial, 
        and communication support to these first responders in an era 
        of increased commercial shipping and cruise tourism.
    (2) Empowered coastal villages that act as first responders are 
        simultaneously facing a continual state of emergency from 
        climate change impacts. Coastal communities face threats to 
        public safety, food security, and traditional livelihoods from 
        changing terrestrial and marine ecosystem conditions. Threats 
        to human security in U.S. Arctic coastal towns, villages, and 
        cities must be integrated into investments and policy decisions 
        for a secure northern homeland.
    (3) Climate change impacts are creating both significant economic 
        costs to U.S. Arctic coastal settlements and local economic 
        opportunity; however, at present local economies are 
        overburdened by costs and unable to capture economic 
        opportunities due to a lack of strategic investment.
    These topics, among many others that were raised in interviews, are 
highlighted here due to their relevance to Arctic maritime security in 
2016, and because of their likelihood to increase as challenges the 
United States will face in medium- and long-term time horizons.
(1) U.S. Arctic Residents are First Responders to Emergencies
    In August and September 2016, I traveled to Nome, Alaska in the 
Bering Strait region below the Arctic Circle. Nome is a remote town, 
off-the-road system, of 3,500 residents and a leading contender for the 
site of the first U.S. deepwater port in the Arctic. I had the 
privilege of interviewing 20 local leaders, including the mayor, the 
port manager, the marine advocate of Kawerak, Inc., and subsistence 
hunting and fishing experts to discuss how the settlement's 
infrastructure, population, and port are coping with the consequences 
of a changing climate.
    Austin Ahmasuk, a lifelong Nome resident, Inupiaq hunter, fisher, 
trapper, and community advocate for Bering Strait villages has been 
running community workshops through Kawerak, the nonprofit arm of the 
Bering Strait Native Corporation, to help communities understand the 
issues and needs that come with more ships. Mr. Ahmasuk noted in his 
interview,

``As we looked at how things like oil spills or hazardous spills are 
treated in this region, we came to a very dramatic realization--we are 
the first responders. And we are looking at some 14,000 gallons or so 
annually of [spilled] oil or hazardous substances in this region,'' 
Austin tells us. Austin has been running community workshops through 
Kawerak, the nonprofit arm of the Bering Strait Native Corporation, to 
help communities understand the issues and needs that come with more 
ships.
``In fact, just today I was in contact with one of our communities in 
our environmental program about a spill that was occurring in Brevik. 
Just this morning [August 24, 2016]. So it's some 14,000 gallons 
annually and the challenge with all those spills is the response. We 
have very little response capability in this region.''

    As my Arctic Institute collogues across the circumpolar north find 
in their research, disaster response and search and rescue capabilities 
are only as strong as the communication channels, technical 
commitments, and infrastructure investments to support coordination and 
planning collaboration with community first responders on any nation-
state's Arctic coastline. Aptly written by our Senior Fellow Andreas 
Osthagen, PhD,

``The number of small-scale maritime emergency incidents occurring in 
Arctic waters is increasing. Demands are made for national governments 
to invest in and sustain relatively expensive Arctic capacities, such 
as coast guard vessels, long-range helicopters, and oil-spill response 
units. An often-overlooked dimension, however, are the local resources 
already present in Arctic communities. Albeit few and far between, 
Arctic communities is the foundation emergency management in the north 
must be built on through three key approaches:''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Each of these areas can be improved by:
Information
  <bullet> Improve the spread of information concerning offshore safety 
        and survival for the local population.
  <bullet> Mandate training/exercise participation for maritime actors.
  <bullet> Mandate so-called `self-rescue' training and equipment for 
        maritime tourists.
  <bullet> Organize `how-to' campaigns in local communities together 
        with relevant non-profit organizations.
  <bullet> Make use of the Arctic engagement of non-profit 
        organizations with additional resources to create projects 
        aimed at local capacity enhancement.
Response
  <bullet> Increase the number of vertical and horizontal exercises 
        between the various local actors.
  <bullet> Enhance community role-clarification with clearly-defined 
        lines of responsibility in preparation for large-scale 
        incidents.
  <bullet> Explore how local maritime industries can be further 
        included in a system or network for local emergency response.
Operations (permanent)
  <bullet> Every Arctic community has some form of local engagement in 
        case of an emergency. It is thus up to the local and national 
        governments to provide a framework in which these resources can 
        be further improved and utilized.
  <bullet> Explore the options for a maritime component to the already 
        existing schemes.
  <bullet> Consider establishing a dedicated tool or hub for learning 
        and knowledge enhancement concerned with maritime emergency 
        management that can work on both the local and National levels 
        by informing communities and the public debate.\8\
---------------------------------------------------------------------------
    \8\ Taken from: https://www.thearcticinstitute.org/utilising-local-
capacities-arctic/.
---------------------------------------------------------------------------
(2) U.S. Arctic Coastal Residents and Local Governments Need Technical 
        Support and Locally Guided Investment To Address Maritime 
        Economic Costs and Economic Opportunities in a Climate Changed 
        North.
    Arctic climate change poses both economic costs and opportunities 
to the local, regional, and National economy, predicated on sustainable 
decision making in how to effectively manage geohazards and changing 
ecosystems. According to the Alaska Chapter of the U.S. Fourth National 
Climate Assessment, for which I was the Review Editor,

``Alaska's marine fish and wildlife habitats, species distributions, 
and food webs, all of which are important to Alaska's residents, are 
increasingly affected by retreating and thinning arctic summer sea ice, 
increasing temperatures, and ocean acidification. Continued warming 
will accelerate related ecosystem alterations in ways that are 
difficult to predict, making adaptation more challenging.
``Arctic sea ice--its presence or absence and year-to-year changes in 
extent, duration, and thickness--in conjunction with increasing ocean 
temperatures and ocean acidification, affects a number of marine 
ecosystems and their inhabitants, including marine mammals, the 
distribution of marine Alaska fish and their food sources.''\9\
---------------------------------------------------------------------------
    \9\ Taylor, P.C., W. Maslowski, J. Perlwitz, and D.J. Wuebbles, 
2017: Arctic Changes and their Effects on Alaska and the Rest of the 
United States. Climate Science Special Report: Fourth National Climate 
Assessment, Volume I. Wuebbles, D.J., D.W. Fahey, K.A. Hibbard, D.J. 
Dokken, B.C. Stewart, and T.K. Maycock, Eds., U.S. Global Change 
Research Program, Washington, DC, USA, 303-332. doi:10.7930/J00863GK.

    This is perhaps best grounded by life-long Alaskan commercial 
fisherman Brett Veerhusen in his observations working in some of the 
---------------------------------------------------------------------------
busiest U.S. Arctic and subarctic water,

``The Bering Sea and Aleutian Islands are some of the richest fishing 
grounds on earth, contributing to American and the world's food 
security. Increased vessel traffic through the Arctic poses both 
opportunities as challenges for our fishing fleets and coastal 
communities. We must adapt so we can respond quickly to emergencies and 
protect our fisheries.''

    In early October, polar scientists will analyze the final data 
collected from the summer of 2019. They will make an official 
assessment of the Arctic sea-ice minimum for this year--the point at 
which the Arctic has the least amount of ice. As we sit today, 
approximately 3.9 million square kilometres of the Arctic Ocean are 
covered by sea ice, only the second time the annual minimum has dropped 
below 4 million square kilometres since satellite measurements began in 
1979.\10\ These dramatic changes have immediate and dangerous 
consequences for Arctic coastal communities, economies, the 
infrastructure upon which they reply, and their capacity to respond to 
and augment the response of the Coast Guard to maritime disasters.
---------------------------------------------------------------------------
    \10\ https://www.nature.com/articles/d41586-019-02653-x.
---------------------------------------------------------------------------
(3) Coastal U.S. Arctic Settlements Are Living in a Continued State of 
        Emergency.
    When I was invited to testify before the U.S. House Committee on 
Homeland Security, I emailed a number of colleagues in Alaska, northern 
Canada, and Norway with a question--what is the most critical issue for 
us to discuss during this hearing. And despite their geographic, 
cultural, and employment differences, working in fishing vessels, local 
government, marine conservation, and reindeer herding, they all had one 
answer: Climate change--the necessity to respond to and increase 
investments in resilient infrastructure for coastal villages as they 
face a rapid shift in climate and ecological systems. To borrow the 
words of Anahma Shannon, environmental coordinator for Kawerak, from 
her 2016 interview, ``Villages really suffer because they are in a 
continual state of emergency.'' She went further to describe a 
dangerous state of emergency in the village of Savoonga on St. Lawrence 
Island in the Bering Sea caused by disappearing sea ice.

``Villages really suffer because they are in a continual state of 
emergency. In normal years, every year, the ice would be close up. We'd 
have thick ice, good ice. But in the recent years we haven't and 3 
years ago now Savoonga had declared a food emergency and they usually 
get 900 walrus, they only got 300 that year and they eat that every 
day. Every day. So they went from having normal packed freezers to 
having hardly being able to eat.''

    There are no easy solutions for these villages from a maritime 
security standpoint. By 2050, Alaska will be 2 to 4 degrees warmer than 
it is today regardless of how much we reduce our greenhouse gas 
emissions. The National Oceanic and Atmospheric Administration (NOAA) 
predicts that Alaska's summer waters will be ice-free by 2030--11 years 
from today. However, it is essential that any Arctic Congressional 
discussion occurring in Washington, DC acknowledge that developing 
investment strategies, maritime transportation policies, and a vision 
for a more secure northern homeland must be rooted in the human 
security of U.S. Arctic residents.
    Amid the discussion around the cumulative impacts, the complexities 
and differences of each individual community can get lost. While the 
environmental challenges arising across Alaska are similar, even 
similarly-situated communities approach these changes with different 
histories, economic backgrounds, lands, natural resources, and 
relationships between native corporations and other bodies of local 
government. In the month Co-PI Eli Keene and I spent interviewing 
community members and leaders in 5 coastal Alaska Native villages, the 
most salient takeaway was the diversity in each community's 
experiences.\11\
---------------------------------------------------------------------------
    \11\ These two paragraphs are taken from the co-authored post with 
Co-PI Eli Keene, ``A Continual State of Emergency: Climate Change and 
Native Lands in Northwest Alaska.'' November 15, 2016. https://
www.thearcticinstitute.org/continual-state-emergency-climate-change-
native-lands-northwest-alaska/.
---------------------------------------------------------------------------
    The Arctic has generated more crisis headlines about climate change 
than any other region except the Pacific Islands. Nonetheless, in Mr. 
Ahmasuk's view: ``We struggle mightily to have our voices heard.'' 
Importantly, the hearing [sic] Our today is absent of many voices of 
community champions and indigenous knowledge holders, from the Bering 
to the Barents Sea. It is incumbent upon us here in Washington, DC to 
work harder to bring their voices to this table and to reach further to 
sit at their table above the Arctic Circle through field visits and 
hearings. As we work toward that goal of building a more inclusive 
dialog on maritime security and economic investement in maritime 
transportation in and for the Arctic, I urge us all to consider how we 
can ensure every conversation and legislation made about Arctic 
transportation and security is guided by local leaders and made with 
reference to addressing the climate change impacts already costing 
billions of dollars in damages, devastating family livelihoods, and 
inflicting irreplaceable cultural loss not only on the 4 million people 
that call the Arctic home, but on communities across America. Because 
what happens in the Arctic doesn't stay in the Arctic. It affects us 
all.

    Mr. Correa. Thank you, Dr. Hermann, for your testimony.
    Our final witness is Mr. Luke Coffey, who is the director 
of the Douglas and Sarah Allison Center for Foreign Policy at 
the Heritage Foundation. Prior to joining the Heritage 
Foundation, Mr. Coffey served in the United Kingdom's Ministry 
of Defence as Special Advisor to then-Secretary of State for 
Defense, where he worked on Arctic security issues. He served 
as a commissioned officer in the U.S. Army, and was awarded the 
Bronze Star.
    Welcome, sir.

 STATEMENT OF LUKE COFFEY, DIRECTOR, DOUGLAS AND SARAH ALLISON 
         CENTER FOR FOREIGN POLICY, HERITAGE FOUNDATION

    Mr. Coffey. Thank you for that introduction.
    Chairman Correa, Ranking Member Lesko, and distinguished 
Members of the committee, I am honored to speak before this 
committee today about Arctic security issues.
    With your permission, Mr. Chairman, I will summarize my 
prepared statement that has been submitted for the record.
    Mr. Correa. Please.
    Mr. Coffey. Increased economic activity in the Arctic due 
to advancements in technology and reduced ice will likely lead 
to a larger military presence. This isn't because there is a 
heightened threat of conflict in the region, but many of the 
capabilities needed in the Arctic, such as search and rescue, 
are more immediately, and at least for now, more effectively 
provided by the military and the Coast Guard.
    Reduced ice in the summer months means new shipping lanes, 
increased tourism, further natural resource exploration but 
these changes, in my opinion, will take time and should be put 
into perspective.
    For example, the Northern Sea route that is often touted as 
a future rival to the Suez Canal has interestingly last year 
only 18 million tons of goods transited along that route. Of 
this, only 491,000 tons made the full journey from Europe to 
Asia. This is 4 hundredths of 1 percent of the volume of goods 
that transited through the Suez Canal during the same year.
    So far, the Trump administration has been a mixed bag when 
it comes to Arctic policy. On a positive note, Secretary 
Pompeo's visit to Iceland was the first Cabinet-level visit to 
that country in more than a decade; and it ended the Obama's 
administration diplomatic sanctions on that country over the 
issue of whaling. Also, the administration recently announced 
the opening of a part-time diplomatic presence in Greenland; 
and this is something that Heritage Foundation has been calling 
for.
    However, there have been some shortcomings. The 
unwillingness of the United States to agree to a joint 
statement during the 2019 Arctic Council Ministerial over the 
issue of climate change was unfortunate. Sometimes, America's 
voice is missing in the debate. At last year's Arctic Circle 
assembly in Iceland, U.S. Government officials could not be 
seen. They certainly were not heard. Those of us that were 
there knew that--know that China happily filled this void, and 
I am grateful that this year, Secretary Perry will be giving 
the keynote address at that event.
    Mr. Chairman, today the United States has 4 primary 
security interests in the Arctic: First, ensuring the 
territorial defense of the United States. In this sense, our 
relationship with Canada is vital, and relations with Iceland 
and Greenland are also important because these two countries 
are essentially the forward operating bases of the North 
American continent.
    Second, enforcing U.S. sovereignty in the region. In the 
Arctic, sovereignty equals security and stability. This means 
respecting the sovereignty of others while maintaining the 
ability to enforce one's own sovereignty. This will reduce the 
chances of armed conflict and ensure that tensions remain low 
in the region.
    Third, meeting our treaty obligations in the Arctic under--
through NATO. Five of the world's 8 Arctic countries belong to 
NATO, but the alliance has no agreed policy on the region and 
this needs to changes.
    Finally, ensuring the free flow of shipping and other 
economic activities in the region. After all, economic freedom 
tends to lead to prosperity and security.
    Mr. Chairman, while the military threat in the Arctic 
remains low, U.S. policy makers cannot ignore Russia and 
China's role there. Both directly impact America's ability to 
meet its security interests in the region. Russia's recent 
steps to militarize the region is a concern. Russia has 
invested greatly in its Arctic footprint by building or 
refurbishing dozens of bases. The Arctic-based Northern Fleet 
accounts for two-thirds of the Russia navy. An Arctic command 
was established in 2015 to coordinate all Russia military 
activities in the region. Russia can do as it likes inside its 
own borders; but it is Moscow's actions in places like Georgia, 
Ukraine, and Syria that makes Russia's motives in the Arctic 
questionable.
    In the simplest terms, China sees its role in the Arctic as 
a place where it can expand its economic influence and 
diplomatic interests; but considering the problems China has 
created in places like Djibouti or Sri Lanka, there are reasons 
to be worried.
    Beijing's Arctic strategy offers a useful glimpse in how it 
wants the rest of the world to see the role of China in the 
region. Running 5,500 words long in the English language 
version, the strategy is littered with all the popular Arctic 
buzz phrases, ``common interests of all country,'' ``law-based 
governance,'' ``climate change,'' ``sustainable development.'' 
The irony is not lost on observers of the South China Sea where 
China has shunned international norms to exert dubious claims 
of sovereignty, or by the fact that China is the world's 
largest emitter of greenhouse gases.
    Even though China's closest point to the Arctic Circle is 
more than 800 nautical miles away, as you can see on the 
screen, Beijing refers to itself as a near-Arctic state which 
is a term that is completely made up. Extending Beijing's logic 
to other countries would mean that Kazakhstan, Belarus, Latvia, 
Lithuania, Estonia, Poland, Germany, the United Kingdom, and 
Ireland are also ``near-Arctic states,'' and these aren't 
countries we normally associate with the Arctic.
    In conclusion, I want to highlight some of the challenges 
of operating militarily in the region. Equipment has to be 
hardened for extreme cold weather, high-frequency radio signals 
can be degraded due to magnetic and solar phenomena. GPS can be 
degraded due to poor satellite geometry, and some of Alaska's 
shipping lanes have not been surveyed properly since Captain 
James Cook sailed through in 1778. This is why proper 
investment in the region by the Coast Guard and the DOD is so 
important. This is not about preparing for war. This is about 
just preparing for the future.
    Thank you, Mr. Chairman, Ranking Member, and Members of the 
committee. I look forward to your questions.
    [The prepared statement of Mr. Coffey follows:]
                   Prepared Statement of Luke Coffey
    Chairman Correa, Ranking Member Lesko, and distinguished Members of 
the committee. I am honored to speak before this esteemed committee 
about Arctic security issues.
    My name is Luke Coffey. I am the director of the Douglas and Sarah 
Allison Center for Foreign Policy in the Kathryn and Shelby Cullom 
Davis Institute for National Security and Foreign Policy at The 
Heritage Foundation. The views I express in this testimony are my own, 
and should not be construed as representing any official position of 
The Heritage Foundation.
    The Arctic region, commonly referred to as the High North, is 
becoming more contested than ever before. The Arctic encompasses the 
lands and territorial waters of 8 countries on 3 continents. Unlike the 
Antarctic, the Arctic has no land mass covering its pole (the North 
Pole), just ocean. The region is home to some of the roughest terrain 
and harshest weather on the planet.
    The region is also one of the least populated areas in the world, 
with sparse nomadic communities and few large cities and towns. Regions 
are often very remote and lack basic transport infrastructure. In 
Greenland no two population centers are connected by a road. Norway's 
Ny Alesund, located on the Svalbard archipelago, is the world's most 
northerly permanently inhabited place with a population of only 35. 
Although official population figures are non-existent, the Nordic 
Council of Ministers estimates the figure is 4 million,\1\ making the 
Arctic's population about the size of Los Angeles. Approximately half 
of the Arctic population lives in Russia.
---------------------------------------------------------------------------
    \1\ Nordic Council of Ministers, Arctic Social Indicators, January 
27, 2011, p. 13, http://library.arcticportal.org/712/1/
Arctic_Social_Indicators_NCoM.pdf (accessed September 16, 2019).
---------------------------------------------------------------------------
    The region is rich in minerals, wildlife, fish, and other natural 
resources. According to some estimates, up to 13 percent of the world's 
undiscovered oil reserves and almost one-third of the world's 
undiscovered natural gas reserves are located in the Arctic.\2\
---------------------------------------------------------------------------
    \2\ U.S. Geological Survey, ``Circum-Arctic Resource Appraisal: 
Estimates of Undiscovered Oil and Gas North of the Arctic Circle,'' 
July 23, 2008, http://pubs.usgs.gov/fs/2008/3049/ (accessed September 
16, 2019).
---------------------------------------------------------------------------
    The melting of some Arctic ice during the summer months creates 
security challenges, but also new opportunities for economic 
development. Reduced ice will mean new shipping lanes opening, 
increased tourism, and further natural resource exploration. However, 
it will also mean a larger military presence by more actors than ever 
before. This increase in economic activity will mean a larger military 
presence. This is not because there is a heightened threat of conflict 
in the region--on the contrary things are relatively calm.
    However, many capabilities needed in the Arctic, such as search and 
rescue, are more immediately, and at least for now, more effectively, 
provided by the military and coast guard.
                     u.s. arctic security interests
    The United States became an Arctic power on October 18, 1867, at 
the ceremony transferring Alaska from Russia to the United States. At 
the time this purchase was ridiculed and was known as ``Seward's 
Folly''--named after the then-Secretary of State William Seward. 
However with a stroke of a pen, Seward ended Russian influence in North 
America, gave the United States direct access to the northern Pacific 
Ocean, and added territory nearly twice the size of Texas for about 2 
cents an acre along with 33,000 miles of coastline. In his retirement 
Seward was asked what his greatest achievement was. He said: ``The 
purchase of Alaska. But it will take another generation to find it 
out.''\3\
---------------------------------------------------------------------------
    \3\ Frederick W. Seward, ``Seward's Folly: A Son's View,'' 
University of Rochester Library Bulletin, Spring 1967, https://
rbscp.lib.rochester.edu/487 (accessed September 16, 2019).
---------------------------------------------------------------------------
    So far the Trump administration has been a mixed bag when it comes 
to U.S. Arctic policy. On the positive side, there have been practical 
policy outcomes regarding the Arctic since 2017. The Trump 
administration has ended diplomatic sanctions applied to Iceland by the 
Obama administration over the issue of whaling.\4\ Secretary Pompeo's 
visit to Iceland was the first Cabinet-level visit since 2008 and did a 
lot to improve bilateral relations with an important Arctic and NATO 
ally.\5\ Secretary Mike Pompeo and his predecessor Secretary Rex 
Tillerson both attended the Arctic Council Ministerial meeting--
continuing a trend first started under the Obama administration.
---------------------------------------------------------------------------
    \4\ Bryan Walsh, ``Obama Takes Steps to Stop Icelandic Whaling. 
Could He Do More?'' Time, September 16, 2011, http://science.time.com/
2011/09/16/obama-takes-steps-to-stop-icelandic-whaling-could-he-do-
more/ (accessed September 16, 2019).
    \5\ Lesley Wroughton, ``U.S. and Iceland Boost Trade Ties, Discuss 
Arctic Security,'' Reuters, February 15, 2019, https://www.reuters.com/
article/us-usa-iceland-pompeo/us-and-iceland-boost-trade-ties-discuss-
arctic-security-idUSKCN1Q41RT (accessed September 16, 2019).
---------------------------------------------------------------------------
    There has been a renewed focus on China's role in the Arctic and 
Secretary Pompeo made this issue his focal point at the recent Arctic 
Council Ministerial. There has also been increased funding for the U.S. 
Coast Guard's Polar Security Cutter program. After years of putting it 
on the back burner, the Trump administration recently announced that 
the United States will maintain a part-time diplomatic presence in 
Greenland.
    However, there have been some shortcomings. The unwillingness of 
the United States to agree to a joint statement during the 2019 Arctic 
Council Ministerial strained U.S. engagement in the region. The 
position of Special Representative for the Arctic has been left 
unfilled by the Trump administration leaving the United States as the 
only Arctic power without a Special Representative or Arctic 
Ambassador.
    Sometimes America's voice is missing in the debate. At last year's 
Arctic Circle Assembly in Iceland, U.S. Government officials could not 
be seen. They definitely were not heard. Those who were there know that 
China happily filled this void.
    Today, the United States has 4 primary security interests in the 
Arctic region:
    (1) Ensuring the territorial defense of the United States.--This is 
particularly true as it pertains to the growing ballistic missile 
threat. In this regard our relationship with Canada is key. This is 
also why it is important for the United States deepen its relations 
with Iceland and Greenland--both serving essentially the forward 
operating bases of the North American continent.
    (2) Enforcing U.S. sovereignty in the region.--In the Arctic, 
sovereignty equals security and stability. Respecting the national 
sovereignty of others in the Arctic while maintaining the ability to 
enforce one's own sovereignty will ensure that the chances of armed 
conflict in the region remain low. This is why investment in the U.S. 
Coast Guard is vital to America's Arctic security interest.
    (3) Meeting treaty obligations in the Arctic region through the 
North Atlantic Treaty Organization (NATO).--Five of the world's 8 
Arctic countries belong to NATO. Another 2, Finland and Sweden, have a 
very close relationship with NATO. However, NATO has no agreed common 
position or policy on its role in the Arctic region. This needs to 
change.
    (4) Ensuring the free flow of shipping and other economic 
activities in the region.--Economic freedom leads to prosperity and 
security. With melting ice creating new economic and shipping 
opportunities in the region it is in America's interests that shipping 
lanes remain open in line with international norms.
U.S. Strategic Challenges in the Arctic
    While the military threat in the Arctic remains low, U.S. policy 
makers cannot ignore Russia's recent activities to militarize the 
Arctic region or China's increasing role in the region. Both directly 
impact America's ability to meet the 4 aforementioned security 
interests.
Russia's Militarization
    Russia is motivated to play an active role in the Arctic region for 
3 reasons:
    (1) Low-risk promotion of Russian nationalism.--Because nationalism 
is on the rise in Russia, Putin's Arctic strategy is popular among the 
population. For Russian President Vladimir Putin, the Arctic is an area 
that allows Russia to flex its muscles without incurring any 
significant geopolitical risk.
    (2) The economic potential of the region.--Russia is also eager to 
promote its economic interests in the region. Half of the world's 
Arctic territory and half of the Arctic region's population is located 
in Russia. It is well-known that the Arctic is home to large stockpiles 
of proven, yet unexploited, oil and gas reserves. The majority of these 
reserves is thought to be located in Russia. In particular, Russia 
hopes the Northern Sea Route (NSR) will become one of the world's most 
important shipping lanes.
    (3) Russia's security in the region.--Russia has invested heavily 
in militarizing its Arctic region. While the Arctic region remains 
peaceful, Russia's recent steps to militarize the region, coupled with 
its bellicose behavior toward its neighbors, makes the Arctic a 
security concern.
    While the Arctic region remains peaceful, Russia's recent steps to 
militarize the Arctic, coupled with its bellicose behavior toward its 
neighbors, makes the Arctic a security concern. The Arctic-based 
Northern Fleet accounts for two-thirds of the Russian Navy. An Arctic 
command was established in 2015 to coordinate all Russian military 
activities in the Arctic region. Two Arctic brigades have been formed, 
and Russia is planning to form Arctic Coastal Defense divisions, which 
will be under the command of the Northern Fleet and stationed on the 
Kola Peninsula and in Russia's eastern Arctic.\6\ Russia's Northern 
Fleet is building newly-refitted submarines and Russia announced in May 
2017 that its buildup of the Northern Fleet's nuclear capacity is 
intended ``to phase `NATO out of [the] Arctic.' ''\7\
---------------------------------------------------------------------------
    \6\ MarEx, ``New Forces to Guard Northern Sea Route,'' The Maritime 
Executive, January 20, 2017, http://www.maritime-executive.com/article/
new-forces-to-guard-northern-sea-route (accessed September 16, 2019).
    \7\ Daniel Brown, ``Russia's NATO Northern Fleet Beefs Up Its 
Nuclear Capabilities to Phase `NATO Out of Arctic,' '' Business 
Insider, June 1, 2017, http://www.businessinsider.com/russias-northern-
fleet-beefs-up-its-nuclear-capabilities-phase-nato-out-arctic-2017-96 
(accessed July 14, 2017).
---------------------------------------------------------------------------
    Russia is developing equipment optimized for Arctic conditions like 
the Mi-38 helicopter and 3 new nuclear icebreakers to add to the 40 
icebreakers already in service (6 of which are nuclear).\8\ Air power 
in the Arctic is increasingly important to Russia; in January, the 
Northern Fleet announced it would ``significantly expand the geography 
of the Arctic flights.''\9\ These flights are often aggressive.
---------------------------------------------------------------------------
    \8\ Osborn, ``Putin's Russia in Biggest Arctic Military Push Since 
Soviet Fall.''
    \9\ Atle Staalesen, ``Russian Navy Announces It Will Significantly 
Expand Arctic Air Patrols,'' The Barents Observer, January 2, 2018, 
https://thebarentsobserver.com/en/security/2018/01/russian-navy-
announces-it-will-significantly-increase-arctic-air-
patrols#.Wkt86ZewoVM.twitter (accessed September 16, 2019).
---------------------------------------------------------------------------
    Twelve Russian aircraft simulated an attack against NATO naval 
forces taking part in a May 2017 exercise, EASTLANT17, near Troms, 
Norway, and later that month,\10\ Russian aircraft targeted aircraft 
from 12 nations including the United States.\11\ that took part in the 
Arctic Challenge 2017 exercise, near Bod.\12\ In April 2018, Maritime 
Patrol Aircraft from Russia's Pacific Fleet for the first time 
exercised locating and bombing enemy submarines in the Arctic, while 
fighter jets exercised repelling an air invasion in the Arctic region.
---------------------------------------------------------------------------
    \10\ Ibid.
    \11\ Thomas Nilsen, ``Arctic Challenge 2017 Set for Take Off,'' The 
Barents Observer, Mary 16, 2017, https://thebarentsobserver.com/en/
security/2017/05/arctic-challenge-2017-set-take (accessed September 16, 
2019).
    \12\ Nilsen, ``Russian Bombers Simulated an Attack Against this 
Radar on Norway's Barents Sea Coast.''
---------------------------------------------------------------------------
    Over the past decade, Russian investment in Arctic bases has 
resulted in 14 operational airfields in the Arctic along with 16 deep-
water ports.\13\ Russia reportedly has placed radar and S-300 missiles 
on the Arctic bases at Franz Joseph Land, New Siberian Islands, Novaya 
Zemlya, and Severnaya Zemlya.\14\ Last year, Russia activated a new 
radar complex on Wrangel Island.\15\ Beginning in 2019-2025, Russia 
plans to lay a nearly 8,000-mile fiber-optic cable across its Arctic 
coast, linking military installations along the way from the Kola 
Peninsula through Vladivostok.\16\
---------------------------------------------------------------------------
    \13\ Robbie Gramer, ``Here's What Russia's Military Build-Up in the 
Arctic Looks Like,'' Foreign Policy, January 25, 2017, http://
foreignpolicy.com/2017/01/25/heres-what-russias-military-buildup-in-
the-arctic-looks-like-trump-oil-military-high-north-infographic-map/
?utm_- 
content=buffer12641&utm_medium=social&utm_source=twitter.com&utm_campaig
n=buffer (accessed June 2, 2017).
    \14\ Trude Pettersen, ``Northern Fleet Gets Own Air Force, Air 
Defense Forces,'' The Barents Observer, February 1, 2016, https://
thebarentsobserver.com/en/security/2016/02/northern-fleet-gets-own-air-
force-air-defense-forces (accessed July 14, 2017).
    \15\ Damien Sharkov, ``Russia Deploys Air Radar on Arctic Wrangel 
Island,'' Newsweek, January 4, 2017, http://www.newsweek.com/russia-
deploys-air-radar-arctic-wrangel-island-538527 (accessed September 16, 
2019).
    \16\ Thomas Nilsen, ``Russia Plans to Lay Trans-Arctic Fiber Cable 
Linking Military Installations,'' The Barents Observer, April 24, 2018, 
https://thebarentsobserver.com/en/security/2018/04/russia-slated-lay-
military-trans-arctic-fibre-cable#.Wt-EVDOjlWI.twitter (accessed 
September 16, 2019).
---------------------------------------------------------------------------
    As an Arctic power, Russia's military presence in the region is to 
be expected. However, it should be viewed with some caution due to 
Russia's pattern of aggression. Last year EUCOM Commander General 
Scaparrotti testified saying, ``Although the chances of military 
conflict in the Arctic are low in the near-term, Russia is increasing 
its qualitative advantage in Arctic operations, and its military bases 
will serve to reinforce Russia's position with the threat of 
force.''\17\
---------------------------------------------------------------------------
    \17\ European Command, ``EUCOM Posture Statement 2018,'' March 8, 
2018, http://www.eucom.mil/mission/eucom-posture-statement-2018 
(accessed September 16, 2019).
---------------------------------------------------------------------------
                        china's increasing role
    With the focus on what China is doing in the South China Sea, its 
massive infrastructure investments in Central Asia and Africa, and the 
trade war with the United States, it is easy to overlook another aspect 
of Beijing's foreign policy: The Arctic.
    In the simplest terms, China sees the Arctic region as another 
place in the world to advance its economic interests and expand its 
diplomatic influence. As a non-Arctic country, China is mindful that 
its Arctic ambitions in international Arctic institutions are naturally 
limited--but this has not stopped Beijing from increasing its economic 
presence in the region.
    China's Arctic strategy published last year offers a useful glimpse 
into how Beijing views its role in the region.\18\ Running 5,500 words 
long in the English language version, the strategy is littered with all 
the Arctic buzzwords like ``common interests of all countries,'' ``law-
based governance,'' ``climate change,'' and ``sustainable 
development.'' The irony is not lost on observers of the South China 
Sea where China has shunned international norms to exert dubious claims 
of sovereignty, or the fact that China is the world's largest emitter 
of greenhouse gases.
---------------------------------------------------------------------------
    \18\ The State Council Information Office of the People's Republic 
of China, ``China's Arctic Policy,'' White Paper, January 26, 2018, 
http://english.www.gov.cn/archive/white_paper/2018/- 01/26/
content_281476026660336.htm (accessed on September 16, 2019).
---------------------------------------------------------------------------
    Even though China's closest point to the Arctic Circle is more than 
800 nautical miles away, Beijing refers to itself as a ``near-Arctic 
state''\19\--a term made up by Beijing and not found in the lexicon of 
Arctic discourse. In fact, extending Beijing's logic to other countries 
would mean that Belarus, Estonia, Germany, Ireland, Kazakhstan, Latvia, 
Lithuania, the Netherlands, Poland, and the United Kingdom are also 
``near-Arctic states.'' These are hardly the countries that one 
imagines when thinking about the Arctic. As Secretary Pompeo has said: 
``There are Arctic states, and non-Arctic states. No third category 
exists. China claiming otherwise entitles them to exactly 
nothing.''\20\
---------------------------------------------------------------------------
    \19\ Ibid.
    \20\ Radio Canada International, ``US Stuns Audience by Tongue-
Lashing China, Russia on Eve of Arctic Council Ministerial,'' May 6, 
2019, https://thebarentsobserver.com/en/arctic/2019/05/us-stuns-
audience-tongue-lashing-china-russia-eve-arctic-council-ministerial 
(accessed September 16, 2019).
---------------------------------------------------------------------------
    But even with its self-professed and exaggerated role in the 
Arctic, China does have legitimate interests in the region. After all, 
China is a global trading nation. It is the world's second-largest 
economy. It holds a permanent seat on the U.N. Security Council.
    Thankfully, so far China's motivation in the Arctic seems to be 
more about economics and less about security. But considering the 
economic mess and massive debt China has left in places like Sri Lanka 
and Djibouti, it is only normal to question China's motivations in the 
Arctic.
    So far the Trump administration has used every available 
opportunity on the international stage to raise awareness of Chinese 
ambition in the Arctic. During a recent trip to Iceland Vice President 
Mike Pence made Chinese economic activity in the Arctic one of the 
focal points of his visit.\21\ During the 2019 Arctic Council 
Ministerial meeting, Secretary Pompeo devoted a sizable amount of his 
speech highlighting the threat China posed to U.S. interests in the 
region, saying, ``The United States and Arctic nations welcome 
transparent Chinese investment that reflect economic interests, not 
National security ambitions.''\22\
---------------------------------------------------------------------------
    \21\ ``Pence, in Visit to Iceland, to Discuss `Incursions' into 
Arctic Circle by China, Russia: Official,'' Reuters, August 28, 2019, 
https://www.reuters.com/article/us-usa-pence/pence-in-visit-to-iceland-
to-discuss-incursions-into-arctic-circle-by-china-russia-official-
idUSKCN1VI1QW (accessed September 16, 2019).
    \22\ Simon Johnson, ``Pompeo: Russia Is `aggressive' in Arctic, 
China's Work There also Needs Watching,'' Reuters, May 6, 2019, https:/
/www.reuters.com/article/us-finland-arctic-council/pompeo-russia-is-
aggressive-in-arctic-chinas-work-there-also-needs-watching-
idUSKCN1SC1AY (accessed September 16, 2019).
---------------------------------------------------------------------------
    For the most part China wants to increase access and influence in 
the Arctic region for economic reasons and it is through this lens that 
U.S. policy makers should approach Chinese activity in the Arctic 
region.
                               conclusion
    America's interests in the Arctic region will only increase in the 
years to come. As other nations devote resources and assets in the 
region to secure their national interests, America cannot afford to 
fall behind. The United States needs to champion an agenda that 
advances the U.S. National interest and devotes the required National 
resources to the region. With the Arctic becoming increasingly 
important for economic and geopolitical reasons, now is not the time 
for the United States to turn away from its own backyard.

    Mr. Correa. Thank you, Mr. Coffey. I want to thank all the 
witnesses for their testimony. Without objection, the witnesses 
full statements will be inserted into the record. I remind each 
Member that he or she will have 5 minutes of questions for the 
panel, and I would now like to recognize myself for 5 minutes 
of questions. Your testimony, all of you, covered a great deal 
in terms of the challenges to our country and to our government 
and to the Arctic and I would ask what do you see as the single 
biggest challenge facing the United States and the Coast Guard 
in the Arctic? Each one of you could answer that question.
    Mr. Sfraga. Perhaps, Mr. Chairman, I will start because I 
know my colleagues will have many other items, but to me, it is 
this idea of domain awareness. If we don't have basic charting 
as was pointed out, if we don't know the domain in which we are 
to operate, we simply can't do it efficiently. You can't build 
a port; you can't ship oil and gas; you can't develop an 
Arctic; you can't protect communities; you can't forecast what 
coastlines would look like unless we have fully charted the 
U.S. oceans, including the Arctic around our region, especially 
in Alaska. As was noted, those are lacking considerably.
    So, I think that was one significant area of good 
hydrological surveys of our territory, because even if you have 
Coast Guard cutters and you want to put in ports, you still 
won't know what terrain you are dealing with unless you have 
basic data, so I would support the research related to 
hydrological charting and surveying.
    Mr. Correa. Yes?
    Ms. Tingstad. I don't disagree with that at all, but I 
would characterize the problem, maybe according to a slightly 
larger scope, which is this issue of a potential security void 
perceived or real coming about, because if the United States is 
not able to provide the prevention and response capabilities 
required in the Arctic as they are elsewhere across the United 
States. I think that domain awareness is certainly a big part 
of that. So, too, are communications and response capabilities 
to include the ice breakers, but I want to highlight that our 
research did find that it really takes a portfolio of 
capabilities.
    So, although ice breakers are important, for example, and 
so, too, is charting, there are a suite of capabilities that 
the Coast Guard, for example, will need to operate effectively 
in the region. Thank you.
    Mr. Correa. Dr. Herrmann.
    Ms. Herrmann. I would add robust partnerships. As you, 
Chairman Correa, said in your opening remarks, the U.S. Coast 
Guard is forced to do more with less, and some of that could be 
augmented by providing more partnerships, partnerships with 
scientific institutions to increase our charting, partnerships 
with those first responders in Alaskan native communities all 
along the coastlines, more partnerships in the international 
arena, as Mr. Coffey noted, about a lack of engagement----
    Mr. Correa. So let me interrupt you. Statements were made 
that we have traditionally had good relations, cooperation with 
the Russians, two places, in space and at the Arctic. So do we 
concur that given that cooperation can become competition that 
can become friction, because now you are just not talking about 
a frozen iceland, you are talking about major resources. Do we 
see ourselves going in that direction?
    Ms. Herrmann. I think we could if we don't provide robust 
partnerships. We have, since the fall of the Iron Curtain, 
since the fall of the Cold War, seen the Arctic as a peaceful 
region, and we have tried very hard through the Arctic Council 
to ensure that that has still been the case. However, when we 
don't invest in our allies through those partnerships in 
Scandinavia, if we don't invest in those partnerships with 
Canada----
    Mr. Correa. Running out of time. Let me have Mr. Coffey say 
a few words. Thank you very much, Dr. Herrmann.
    Mr. Coffey. I agree with the issue about situational 
awareness, so I can't--I have nothing to add in terms of what 
was already said, but I will say one thing about our lack of 
awareness of the fact that we are an Arctic country. Outside 
committee rooms like this or certain offices and certain think 
tanks around town, there seems to be this inability to grasp 
the idea that we are an Arctic country being so far away from 
it where we are.
    Mr. Correa. Thank you very much. I am going to now 
recognize the Ranking Member of the subcommittee, the gentle 
person from Arizona, Mrs. Lesko, for 5 minutes of questions.
    Mrs. Lesko. Thank you, Mr. Chairman. My first question will 
be for Mr. Sfraga, is that how you say your name? By the way, I 
read your testimonies, all of yours, and very interesting. Good 
job. Can you describe China's Polar Silk Road Initiative and 
its significance to the changing dynamic in the Arctic?
    Mr. Sfraga. Thank you, Ranking Member. China plays the game 
of Go, big, long strategic vision. Their Polar Silk Road, their 
shipping lanes, they see the Arctic like they see Africa. This 
is a region that they would like to have a lot of influence in. 
There is oil and gas; there is other critical minerals; there 
is rare earth minerals; and so, there are a number of ways to 
influence a region--militarily, economically. Economically is 
where they are going with an over $20 billion investment in the 
Yamal Peninsula, that is a way to influence the region.
    So China, in my perspective, is influencing the region and 
the Polar Silk Road as a resource area for them. It diversifies 
their energy portfolio. It allows them to influence the dialog 
and what is happening in a region, even though they claim to be 
a near-Arctic nation. So this is long-term. They also are an 
observer to the Arctic Council, which means they get to speak 
at the Arctic Council when allowed to, to influence where they 
can, the dialog. Not all of it is nefarious, but nevertheless, 
this is long-term.
    So we might think in election cycles or in weeks or months 
or years, the Chinese think in decades. And so if a new ocean 
is opening, they are going to try every way they can to 
influence what is happening there governance-wise, and also 
economically.
    Mrs. Lesko. Thank you. My next question is for Mr. Coffey. 
Can you explain the significance of Russia's claim that the 
Northern Sea Route is an internal Russian waterway? How does 
that impact Freedom of Navigation concerns?
    Mr. Coffey. Russia's claim that the Northern Sea Route is 
part of its internal waterways is a very dubious claim that is 
based on very loose interpretation of Article 234 of UNCLOS, 
which says they can put certain restrictions on the navigation 
and transit in its EEZ, due to environmental concerns and other 
issues. Russia's claim is not within the norms of international 
law. As far as I know the only U.S. ally that has challenged 
this in terms of a Freedom of Navigation operation is France. 
It did so recently in a transit to the Northern Sea Route, a 
French supply ship, French naval supply ship, and I think 
actually under certain circumstances when the time is right, 
the United States should also show that it does not recognize 
Russia's claim that this is an internal waterway and conduct 
Freedom of Navigation operations in the region.
    Mrs. Lesko. Thank you. Interesting. Dr. Herrmann, do you 
believe the United States needs to develop strategic ports in 
the Arctic?
    Ms. Herrmann. I think that at present the port 
infrastructure and wider infrastructure in port cities isn't 
built to reap the economic benefits of increased tourism in a 
sustainable way. We have not invested in that environmental 
sustainability both through regulation to ensure that we are 
not polluting those critical fisheries to our food security and 
to Alaska fishermen, but we are also not investing in that 
infrastructure to ensure that when tourists come that Alaska 
native craftswomen and -men are able to gain those economic 
benefits, so increased investment in port cities all across the 
Arctic, particularly, Nome, but I think that that is a key 
thing that we need to do in the next 5 years.
    Mrs. Lesko. So Dr. Herrmann, just so I understand, are you 
saying that you are supporting it in the future, but not right 
now because we haven't built the infrastructure yet?
    Ms. Herrmann. We have not built the infrastructure yet. I 
think that we need to, as I said in my statement, listen, and 
learn from those who live in these port cities and be guided by 
those voices, so I think that, you know, investing in those 
assets before making the large-scale investment in a port, 
making sure that those cities are well-supported and are being 
led by local voices is the first step before any other major 
infrastructure investment is taken.
    Mrs. Lesko. Thank you.
    I am almost out of time, so I will yield back my time.
    Mr. Correa. Thank you, Mrs. Lesko. Now I would like to 
recognize Mrs. Demings for questions.
    Mrs. Demings. Thank you so much, Mr. Chairman. Thank you to 
our witnesses for being here. Unfortunately, our time is 
limited. They have called votes, but I would like to ask this 
question and whichever one of you feel best prepared, please 
answer. How would you describe the geopolitical tensions that 
currently are developing within the region, and what efforts do 
you believe U.S. allies are engaged in to really foster 
international cooperation?
    Mr. Coffey. Perhaps I could have the first stab at that. As 
I said, I believe that the level of geopolitical tension in the 
region is low, especially in a security or military sense, but 
as we have seen with Russia's actions in other places of the 
world--Georgia, Ukraine, Syria--things could quickly change and 
they seem to have the political will and a willingness to use 
military force to advance national interests and I don't think 
cold weather is going to stop them. So I think we have to plan 
accordingly assuming that, you know, Russia could act in a 
belligerent way in the region, especially considering that 5 of 
the Arctic countries, as I said, are in NATO, and the United 
States is obligated to defend Oslo, Norway, in the same way we 
are obligated to defend Orlando, Florida, so that needs to be 
factored into our way of thinking, I believe.
    Mrs. Demings. Thank you. Doctor.
    Ms. Tingstad. Thanks for that question. So in our work on 
Arctic cooperation, we noted a long history of doing exactly 
that in the region, and there are many structures and 
frameworks in place to enable that. So, I don't want to 
overlook that in this discussion. But as has already been 
noted, our work also found that there were very few types of 
flashpoints, or tensions, that could arise in the near-term 
future at least in the Arctic because the stakeholders involved 
benefit from this cooperation economically and in other ways as 
well; but that said, I do think that one of the items that I 
mentioned in my testimony is this idea of a security void and 
nations being able to conduct their roles and responsibilities 
in the region as they would elsewhere in their territories, and 
I do think that that is something the United States needs to 
pay attention to moving forward in the region. Thank you.
    Mrs. Demings. Thank you so much. Regretfully, I am going to 
have to yield back, Mr. Chair.
    Mr. Correa. I would now call Mr. Katko from New York.
    Mr. Katko. Well, I don't regret that you finished early 
because now I can ask questions and then go vote. So thank you 
for accommodating that and thank you for having this hearing, 
because it is a really important issue. One thing I love about 
Homeland Security, we are generally on the same page all the 
time, Democrats and Republicans, and this is another example of 
that. So, I am just curious as we are having this whole 
discussion here, I want to take a step back because everything 
I have heard from everybody else I agree with, and we need to 
increase funding the Coast Guard and get a presence up there 
that is better and more sustained, but how did this happen?
    Can anybody venture an opinion as to how we let our guard 
down to this extent and allowed Russia to have so much more 
influence in that area? Why would we do that especially with 
our involvement with NATO and those countries? Anybody want to 
hazard an opinion on that? Mr. Coffey, you want to start?
    Mr. Coffey. Sure. Well, I think it goes back to the point I 
made about the lack of awareness of our role status as an 
Arctic power in terms of the policy community and DOD and 
Department of Homeland Security, but also, the inability to 
have a serious debate about this issue and our No. 1 security 
alliance, NATO, and this is because of an internal division 
between Norway and Canada over what role NATO should have in 
the region. To give you just one example, the NATO strategic 
concepts, its most recent one, which highlights all the future 
challenges to the alliance doesn't even mention the word 
``Arctic'' once. Literally it is not found. So that also feeds 
into our policy making as well, so perhaps we are a little bit 
behind the curve because of our--it is our own fault.
    Mr. Katko. Doctor.
    Ms. Herrmann. I would agree with that. The United States is 
often called the reluctant Arctic nation, right? We are not at 
the table as often because we don't view ourselves as an Arctic 
nation. When you go to Moscow, when you speak with our Russian 
colleagues, right, they know that they are an Arctic nation. 
Our U.S. special representative to the Arctic, Admiral Pap, 
that has been an empty office for the past 2 years now. We do 
not promote ourselves as an Arctic nation. We are thousands of 
miles away from Alaska and those voices just aren't heard in 
these halls. So in order to ensure that those conversations are 
happening at NATO, I think we first have to fully acknowledge 
and come to the table as an Arctic nation.
    Mr. Katko. I know we are talking about the Coast Guard and 
the Coast Guard's presence and needs, but it is also a 
Department of Defense issue as well obviously. I just--I am 
just dumbfounded as to why we would let this happen, but 
anybody else want to add anything to that? Doc?
    Mr. Sfraga. I would add just a few things. As an Alaskan, I 
have an interesting perspective, perhaps, in that the F-35s 
will be vetted down in Eielson Air Force Base here in just a 
little bit, and missile defense is almost exactly 100 miles 
from my driveway, so we are hypersensitive about what happens 
across the Bering Strait, what happens in the Indo-Pacific 
region.
    I think we have let our guard down as a country for a 
number of reasons: One, if you go back in history, you look at 
World War II, it was reactionary. Alaska was at the sphere of a 
lot that happened in World War II, so we built an Alcan. We put 
in more forces there. Then the Cold War happened.
    During the Cold War, the United States and Russia played a 
great game under the ice, and above the air. Still today, we 
have Russian bombers that have come across and they are 
escorted from international waters. But at the end of the Cold 
War, there was a reset where we could sort-of let our guard 
down and think about things. Then, of course, as a Nation, we 
were looking elsewhere after 9/11. This now climate change 
serves the fourth pillar of this where we are seeing this ocean 
open before us----
    Mr. Correa. I am going to interrupt you. We are running out 
of time and I just want to thank the witnesses today for your 
comments. We are going to continue to address these issues, and 
I want to thank the Members of the committee also for the 
questions and you can add additional questions for the 
witnesses in writing and we would ask you to respond to them as 
well.
    Without objection, the committee record shall be kept open 
for 10 days. Seeing no further business, the committee stands 
adjourned. Thank you very much.
    [Whereupon, at 3:13 p.m., the subcommittee was adjourned.]

                                 [all]
</pre></body></html>
